<html>
<title> - DEVELOPMENT, DIPLOMACY, AND DEFENSE: PROMOTING U.S. INTERESTS IN AFRICA</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


DEVELOPMENT, DIPLOMACY, AND DEFENSE: PROMOTING U.S. INTERESTS IN AFRICA

=======================================================================

                                 HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           DECEMBER 12, 2018

                               __________

                           Serial No. 115-176

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available: http://www.foreignaffairs.house.gov/, http://docs.house.gov, 

                       or http://www.govinfo.gov

                                 ______
                                 
                   U.S. GOVERNMENT PUBLISHING OFFICE                    
33-669PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5532253a15362026213d3039257b363a387b">[email&#160;protected]</a>                                  
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                LOIS FRANKEL, Florida
SCOTT PERRY, Pennsylvania<greek-l>   TULSI GABBARD, Hawaii
RON DeSANTIS, Florida [until 9/10/   JOAQUIN CASTRO, Texas
    18] deg.                         ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia
JOHN R. CURTIS, Utah
VACANT

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Tibor P. Nagy, Jr., Assistant Secretary, Bureau of 
  African Affairs, U.S. Department of State......................     4
Mr. Ramsey Day, Senior Deputy Assistant Administrator, Bureau for 
  Africa, U.S. Agency for International Development..............    16

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Tibor P. Nagy, Jr.: Prepared statement.............     8
Mr. Ramsey Day: Prepared statement...............................    18

                                APPENDIX

Hearing notice...................................................    56
Hearing minutes..................................................    57
The Honorable David Cicilline, a Representative in Congress from 
  the State of Rhode Island: Material submitted for the record...    59

 
DEVELOPMENT, DIPLOMACY, AND DEFENSE: PROMOTING U.S. INTERESTS IN AFRICA

                              ----------                              


                      WEDNESDAY, DECEMBER 12, 2018

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:00 a.m., in 
room 2172 Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Mr. Royce. This hearing will come to order. This hearing is 
on Development, Diplomacy, and Defense: Promoting U.S. 
Interests in Africa, and today we will hear from the 
administration on U.S. policy toward Africa. This is 
particularly timely as tomorrow the administration will roll 
out a new Africa strategy.
    There is longstanding bipartisan consensus in Congress that 
the U.S. must be fully engaged on the continent of Africa. U.S. 
diplomacy and assistance saves lives. It increases our 
security. It builds capacity. It advances conservation. It 
spurs economic opportunity for both Americans and Africans.
    Africa is a continent of immense opportunity and challenge, 
blessed with tremendous resources, newly empowered consumers, 
entrepreneurial youth. In many places, this means significant 
potential for U.S. companies to increase their trade and 
investment. In other areas, however, despotic leaders continue 
to exploit power and pilfer resources for personal gain, 
ignoring pressing social and economic needs.
    Meanwhile, unfortunately, in some parts of Africa, 
terrorists and transnational criminal organizations have found 
safe haven in vast, ungoverned spaces. This committee has been 
at the forefront in responding to these opportunities and 
challenges. Landmark legislation like the Africa Growth and 
Opportunity Act and Electrify Africa have energized U.S. 
economic engagement on the continent, and more recently the 
President signed into law the BUILD Act which increases our 
ability to support private sector investment.
    These and other initiatives are helping the next generation 
of entrepreneurs and civil society leaders to create jobs in 
their communities and demand more accountability from their 
governments. Improved health, thanks in large part to programs 
like PEPFAR and the Global Food Security Act, means Africans 
are living longer and healthier lives.
    The committee has also been a leader in efforts to crack 
down on poaching and illicit trafficking so that elephants and 
rhinos and magnificent natural resources are preserved and 
local communities there benefit rather than be plundered by 
criminal and terrorist organizations. In tackling these 
challenges, we shouldn't engage with only the countries who are 
our friends. Our interests are diverse and continent-wide. We 
simply must work in the toughest places to defend these 
interests.
    And we know what happens when the U.S. fails to engage. We 
know who fills that void, it is China and Russia. They already 
are by ramping up business investment, access to finance, arms 
sales, and military partnerships. Several of us on the 
committee have seen this firsthand. Last year, China opened its 
first permanent military base co-located with the U.S. base in 
Djibouti. We must get this right. Our diplomatic, economic, and 
national security interests are at stake.
    We must deploy adequate resources to support our interests 
in Africa. We must continue to not back away from building 
partner capacity, to improve security, to foster trade, to 
foster economic development, strengthen health systems, combat 
wildlife trafficking, and support good governance. We must be 
steadfast in our support of the men and women, Americans and 
Africans, working to advance democracy, stability, peace, to 
ultimately create better lives. That is the foundation of an 
effective Africa strategy.
    And I would like to thank Ranking Member Eliot Engel, as 
well as Chairman Chris Smith, and Ranking Member Karen Bass of 
the Africa Subcommittee for their dedication to these issues. 
This is my last hearing as chairman of this committee. It has 
been the honor of a lifetime to work with my colleagues to 
strengthen our country and advance neoliberal values worldwide. 
I am forever grateful to your support.
    And, lastly, I want to thank Staff Director Tom Sheehy and 
Chief of Staff Amy Porter who are leaving the committee. They 
have been essential to our many successes. I now turn to the 
ranking member, Mr. Eliot Engel.
    Mr. Engel. Thank you, Mr. Chairman. Thank you for calling 
this hearing. As you mentioned, I am guessing this will be the 
final hearing of the Foreign Affairs Committee of the 115th 
Congress and, Mr. Chairman, your final hearing as chairman. And 
so, this is a fitting subject to focus on, because there is not 
a member of this body who has done more than you when it comes 
to American engagement across the African continent.
    Legislation to expand access to reliable electricity, to 
provide better sources of food and nutrition, to crack down on 
wildlife trafficking and the criminal networks responsible for 
it, to help foster growth and development and stability. Bill 
after bill after bill passed through this committee and the 
Congress are now law, thanks to the leadership and vision of 
Chairman Ed Royce.
    And the committee's work on Africa has looked like the vast 
majority of the work this committee has done under Ed's 
chairmanship. It has been thoughtful, it has been bipartisan, 
it has reflected the commitment of this committee's members to 
push legislation that advances American interests and values 
leaving politics aside.
    So, Ed, let me just thank you for the way you have run this 
committee. If I am elected chairman by the Democratic caucus it 
is my full intention to handle things with the same sort of 
fairness and collegiality that you have. So I want to thank you 
for everything you have done. Thank you for being our 
colleague, thank you for being our friend. And we have made the 
lives of countless people better because of your hard efforts.
    We always say that the Foreign Affairs Committee is the 
most bipartisan committee in Congress and we always say that 
partisanship should stop at the water's edge. And that is what 
you and I have tried to do and it has been a pleasure working 
next to you and working with you. Thank you.
    Mr. Royce. Thank you.
    Mr. Engel. Turning to today's hearing, I want to welcome 
our witnesses. It has been rare in the last few years that we 
have had administration officials before the committee, so we 
hope this begins a new trend. So we are glad to see you.
    We have seen a number of promising developments in Africa 
lately. In Senegal, a new Millennium Challenge Corporation 
compact worth more than $.5 billion will help meet the growing 
demand for reliable electricity in one of Africa's fastest-
growing economies. In Ethiopia, after months of protests in a 
violent, destabilizing crackdown, the Prime Minister committed 
to reform has risen to power. We need to help sustain the 
momentum of the country's positive trajectory.
    Nigeria's elections, planned for February of next year, 
will be massively consequential. The progress Nigeria has made 
demonstrates the importance of continued American support for 
Nigeria's Independent National Electoral Commission and other 
organizations like it.
    At the same time, we are keeping an eye on some seriously 
troubling trends when it comes to human rights: In Uganda, the 
arrest and torture of opposition politicians even as that 
country receives massive American counterterrorism assistance; 
in Tanzania, crackdowns on free speech and press along with 
threats to the LGBTQ community; Cameroon's longtime leader just 
elected to a seventh term continues to cling to power in the 
face of a growing insurgency; and Zimbabwe, where July's 
elections were marred by fraud and intimidation and where the 
government has shown little interest in enacting desperately 
needed reforms.
    So there are plenty of areas that demand our continued 
focus and I think that we need to work hard to make sure that 
these things are taken care of. After the Nigerian army 
massacred 40 unarmed civilians, they tweeted a clip of the 
President suggesting our own military use lethal force against 
asylum seekers on our southern border.
    In August, the President tweeted a white nationalist 
conspiracy theory that offended our partners in South Africa, a 
country to which he has nominated an Ambassador. And in 
January, the President referred to African countries in general 
using a term that I won't repeat here. So these words send a 
troubling message, but our country's actions are even more 
important and that is why I am opposed to the administration's 
trying to slash funding for global health efforts.
    The ongoing Ebola outbreak in the DRC's North Kivu province 
is the second largest in history and the region is so unstable 
that we have had to withdraw CDC personnel from the area. This 
crisis underscores why strong funding for global health is so 
critical. We want countries to be able to stop epidemics 
quickly and effectively, hopefully before they start and 
definitely before they reach our shores. So we can't go along 
with fewer resources and it troubles me that the administration 
seems to be pushing in that direction.
    And, broadly speaking, we should not have a foreign policy 
of withdrawal and isolation because we leave a void that our 
adversaries are only too happy to fill. Africa is a prime 
example. If we fail to stay engaged, there is no doubt that 
China and Russia will swoop in and exert influence. In my view, 
we simply cannot let that happen. So I am eager to hear from 
our witnesses about how we are going to advance American 
interests and values in this critical region.
    Mr. Chairman, I thank you again and I want to point out the 
wonderful work that Karen Bass and Chris Smith have done in 
order to get to the point where we are really making a 
difference in people's lives. So thank you again, I yield back.
    Mr. Royce. Thank you very much, Mr. Engel. I appreciate it, 
Eliot.
    So this morning I am pleased to welcome the Honorable Tibor 
Nagy, Jr. and Mr. Ramsey Day to the committee. Ambassador Tibor 
Nagy currently serves as Assistant Secretary of State for 
African Affairs. Prior to his appointment, he served as U.S. 
Ambassador to Ethiopia, Ambassador to Guinea, and as the Deputy 
Chief of Mission in Nigeria. In total, Ambassador Nagy has 20 
years of experience working across Africa.
    Ramsey Day is with us, currently serving as the Senior 
Deputy Assistant Administrator for Africa at USAID. Previously, 
Mr. Day was the Senior Director for the Center for Global 
Impact at the International Republican Institute. He has held 
numerous positions within the international development and 
foreign policy communities both in the United States and 
various overseas posts.
    And so we appreciate you both being with us today. Without 
objection, the witnesses' full prepared statements will be made 
part of the record. Members will have 5 calendar days to submit 
any statements or questions or extraneous material for the 
record.
    Before proceeding, I would like to take a moment and 
recognize in the audience Florie Liser of the Corporate Council 
on Africa for her steadfast leadership to increase trade and 
investment in Africa; Troy Fitrell, who worked as a fellow on 
this committee, is just back from serving as Deputy Chief of 
Mission in Addis Ababa, in Addis; Kathleen Moody of the State 
Department who has been working on African issues for as long 
as I have; Tony Carroll who is with us, former Peace Corps, who 
has testified in front of this committee before on Africa.
    So, and we see many other old African hands in the audience 
as well, so it is great to have you with us here in the 
audience. And so, Ambassador Nagy, I would ask you, please 
summarize your remarks. Thank you.

   STATEMENT OF THE HONORABLE TIBOR P. NAGY, JR., ASSISTANT 
 SECRETARY, BUREAU OF AFRICAN AFFAIRS, U.S. DEPARTMENT OF STATE

    Ambassador Nagy. Thank you, Chairman Royce, Ranking Member 
Engel, members of the committee for the opportunity to testify 
today on U.S. policy toward Africa, and to my colleague and 
friend, Ramsey Day of USAID, here with me today. I also want to 
express my gratitude and on behalf of the Africa Bureau at the 
State Department to Chairman Royce for his decades of service 
to Africa, Africa relations, and other members for your 
longstanding interest in Africa.
    Today's hearing comes at an opportune time. We are at a 
critical juncture for the relationship between the United 
States and the nations and people of Africa. Africa faces an 
uncertain and challenging, but by no means predetermined 
future. The choices we make now will affect not only our 
relationship with the continent but will have ramifications 
worldwide.
    Africa is facing a demographic tsunami. Its population will 
double by 2050 to around 2.5 billion people, 50 percent of whom 
will be under the age of 24. Challenges with infrastructure, 
corruption, and terrorism continue, and China is asserting 
itself on the continent economically, militarily, and 
politically.
    We must remain a positive alternative and make clear that 
engaging with the United States will mean greater prosperity 
and security for Africa. I am very fortunate to be in my 
current position. Virtually, my entire career centered on 
Africa, much of it living there in eight different countries.
    Since my first diplomatic assignment 40 years ago, Africa 
has changed dramatically. I recently concluded two trips to the 
continent in West Africa and East Africa where I also addressed 
the African Union. Let me assure you of this, our potential 
with Africa is limitless. With every challenge there is 
opportunity and we must capitalize on our successes.
    Here, I would like to articulate some of the focus areas of 
the Bureau of African Affairs. First, we are promoting stronger 
trade and commercial ties between the United States and Africa, 
working with our African partners to build a level playing 
field across the continent's markets. African governments need 
to increase transparency and fairness in their commercial 
environments to attract more business and have predictable 
policies, laws conforming to international standards, and a 
credible dispute resolution process.
    Second, more than 60 percent of sub-Saharan Africa or 600 
million people is below the age of 25, representing 40 percent 
of sub-Saharan Africa's unemployed. We are working to match 
American investment and ingenuity with a dynamism and 
entrepreneurial spirit of young Africans, anchoring them to 
their countries and keeping them from resorting to migration, 
militancy, or crime.
    The third area is working to advance peace and security 
through partnerships with African governments and effective 
regional mechanisms. Finally, we are focused on countering the 
Chinese narrative and setting the record straight. The United 
States has a longstanding commitment to Africa as a partner 
positively supporting economic growth, good governance, rule of 
law, enhance gender equality and the health of the African 
people.
    Let me begin with the promotion of stronger trade and 
investment ties. Everywhere I speak to an African audience I 
emphasize we seek to do business not just in Africa but with 
Africa. Our promotion of free trade agreements with the United 
States communicates to Africans that transparency, fairness, 
and good governance attract U.S. investment and we hope to 
negotiate a first-ever free trade agreement with a sub-Saharan 
country.
    Trade has greatly expanded. Under the African Growth and 
Opportunity Act, from 2000 to 2016, U.S. investment in sub-
Saharan Africa increased from $7 billion to $29 billion, 
providing opportunities for hundreds of thousands of Africans.
    Since 2000, U.S. exports to Africa rose from 6 to more than 
$14 billion last year, and U.S. imports from Africa total 
nearly $25 billion. The total two-way trade of $39 billion in 
2017, up 5.8 percent from 2015. The U.S. Millennium Challenge 
Corporation provides assistance to the world's poorest 
countries who demonstrate commitment to good governance, 
economic freedom, and investing in their citizens.
    This week I attended a ceremony with Secretary Pompeo where 
MCC and the Government of Senegal signed a $550 million compact 
that will modernize Senegal's power sector to increase economic 
growth and reduce poverty through improved access to 
electricity. The BUILD Act, and thank you very much to Congress 
for the BUILD Act which President Trump signed into law in 
October with strong bipartisan support, will establish the U.S. 
International Development Finance Corporation. This new law 
consolidates, modernizes, and reforms the U.S. Government's 
development finance capabilities.
    Africa is the largest regional exposure totaling more than 
$6 billion and the BUILD Act will help mobilize additional 
private sector investment. With our second focus, we go beyond 
investing in Africa to invest in Africans. Through the Young 
African Leaders Initiative or YALI, we equip the next 
generation of Africans with leadership and entrepreneurship 
skills. The YALI network, a virtual community of more than .5 
million members, helps young Africans develop skills and 
connections needed to make change in their communities.
    Our third focus, promoting peace and security, is essential 
to secure Africa's opportunities and prosperity. We support 
African-led efforts against terrorism and other transnational 
threats. U.S. assistance has brought some success in the Lake 
Chad region, Somalia, and elsewhere. And we seek burden-sharing 
opportunities with non-African actors as well.
    We have provided training to peacekeepers from more than 20 
African countries with substantial impact. Ten years ago, 
Africans comprised only 40 percent of the continent's 
peacekeepers. Now that figure has exceeded 60 percent. U.S.-
funded programming is vital to these forces as it is to the G5 
Sahel Joint Force and African-driven efforts in the Lake Chad 
region to counter terrorism in West Africa.
    Our African partners are working to ensure stability and 
defeat terrorist organizations in East Africa as well. The 
AMISOM mission composed of regional states is helping Somalia 
become more stable and prosperous and we are providing 
development and security assistance to the Somalis to govern 
themselves. Additionally, we support efforts by African 
partners to strengthen their maritime and border security and 
their efforts to address trafficking in arms, drugs, and 
wildlife.
    Finally, we want to be clear to all Africans that the 
United States has an unwavering commitment to the continent 
shown through our longstanding partnerships and support for 
good governance, security, human rights and economic growth, 
and provision of humanitarian assistance. African countries 
should know that some infrastructure projects and seemingly 
attractive loan terms from other countries can lead down a 
dangerous path to indebtedness, loan defaults, and 
concessionary extraction of natural resources stifling the 
economic growth needed to create jobs.
    In contrast, the United States is pursuing sustainable 
alternatives for African growth and development. U.S. programs 
like AGOA, PEPFAR, Power Africa, and Feed the Future opened the 
U.S. market to African goods, countered HIV/AIDS, brought 
electricity to rural areas, protected vulnerable women and 
children, supported youth entrepreneurship, and helped Africans 
in innumerable ways.
    As we continue to engage with Africa we must assess how to 
best work with each country and multilateral institution to 
advance our mutual interest and priorities. The State 
Department cannot do this alone. We need to continually 
synchronize our approach among all elements of national power. 
Only by balancing resources among development, diplomacy, and 
defense can we speak with a coordinated voice to the 
governments and the people of Africa.
    I do not exaggerate when I say Africa is the continent of 
the future, but a future envisioned by Africans and not one 
seen as forced upon them, and success must ultimately come from 
developing African solutions to African problems. We must look 
at Africa through the windshield not through the rearview 
mirror.
    Thank you for the opportunity to speak today. I look 
forward to your support as our nation continues our engagement 
with Africa.
    [The prepared statement of Ambassador Nagy follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Royce. Thank you, Ambassador.
    Mr. Day? And feel free, Mr. Day, to just summarize those 
remarks. Try to keep to 5 minutes.

     STATEMENT OF MR. RAMSEY DAY, SENIOR DEPUTY ASSISTANT 
ADMINISTRATOR, BUREAU FOR AFRICA, U.S. AGENCY FOR INTERNATIONAL 
                          DEVELOPMENT

    Mr. Day. Thank you, Chairman.
    Mr. Royce. Thank you, sir.
    Mr. Day. Chairman Royce, Ranking Member Engel, members of 
the committee, I am grateful for the opportunity to testify 
before you today. I would like to extend a special thank you to 
the committee and your colleagues in Congress whose longtime 
bipartisan commitment to the peoples of the African continent 
provides the foundation for USAID programs and the springboard 
for their success.
    And while challenges remain, I truly believe that Africa's 
future is bright. The investments and commitment of the 
American people to the people of Africa are paying off and 
USAID has set its priorities to capitalize on the region's 
emerging opportunities. Under Administrator Green's leadership, 
USAID is focusing its resources in places where the conditions 
are right to establish and sustain progress.
    U.S. assistance in Africa certainly saves lives and it also 
spurs trade and investment and advances peace and security. 
Take the President's Emergency Plan for AIDS Relief or PEPFAR, 
this program is a powerful expression of the compassion and 
generosity of the American people. In 2016, a PEPFAR assessment 
showed the first evidence of the epidemic becoming controlled 
in three key African countries--Malawi, Zambia, and Zimbabwe.
    These same countries have reduced the new HIV infections by 
as much as 75 percent since the start of the PEPFAR program. 
And with continued focus, the U.S. Government is poised to help 
control the HIV epidemic in ten African countries over the next 
4 years. The United States is also the world's leading 
humanitarian donor. USAID provides humanitarian assistance 
across the continent including in Nigeria, South Sudan, and 
Somalia where conflict and instability are fueling food 
insecurity and displacement.
    USAID experts have also been deployed to the Democratic 
Republic of Congo or DRC to help respond to the current Ebola 
crisis. But even as USAID mobilizes the best of American 
generosity, we also work to prepare for future shocks and equip 
countries with the tools they will need to feed themselves.
    USAID is also highly focused on the immense trade and 
international investment opportunities, which we believe is the 
fastest way for Africa to boost its economic growth, which is 
in the interest of the United States. We believe that African 
nations can tap the trillions of dollars in private sector 
resources needed to advance the continent's development and 
ultimately eliminate the need for unsustainable foreign-backed 
loans.
    One area where we are using a market approach or private 
sector engagement is the power sector, an area where we greatly 
appreciate Chairman Royce's leadership with the enactment of 
the Electrify Africa Act. Power Africa, a whole of government 
effort led by USAID, employs a partnership approach to engage 
U.S. Government agencies, international donors and finance 
institutions, host country counterparts, and of course the 
private sector. Power Africa has helped add over 12.5 million 
new electrical connections, which means more than 57 million 
people have access to electricity who did not have access prior 
to the initiative's launch.
    USAID Trade and Investment Hubs in Africa are helping to 
transform African economies and deepen the U.S.-Africa trade 
and investment relationship. They reduce regional trade 
barriers and promote trade and investment under the Africa 
Growth and Opportunity Act or AGOA, legislation that this 
committee championed. The Trade and Investment Hubs have also 
directly leveraged $1.3 billion in African exports under AGOA 
and many of the jobs created are held by women who tend to 
invest job-related income into their families and communities.
    However, we can't talk about successful economic future for 
African countries without addressing peace and security. USAID 
works with our African partners to address the underlying 
factors that allow transnational crime, violent extremism, and 
internal conflict to flourish. Working in partnership with 
African governments and civil society, our support strengthens 
institutions; protects the democratic gains that have been made 
all across the continent.
    USAID is also combating the threat of wildlife trafficking 
in countries across sub-Saharan Africa. USAID and its partners 
are making it more difficult for people to poach, move, and 
sell wildlife products across borders. This helps secure our 
natural resources and fight the criminal networks that threaten 
security and the rule of law and ultimately undermine 
development progress.
    Our focus is on helping countries on their journey to self-
reliance. USAID's goal is to end the need for foreign 
assistance. As Administrator Green has said, it is our core 
belief that each country must lead its own development journey. 
We are focusing on ending the need for foreign assistance not 
because we wish to retreat from our friends, but because we 
believe in them.
    If a country is willing to take on the difficult journey to 
self-reliance, we want to walk alongside them along that 
journey. At USAID, we are looking toward the day when the 
transition to a new kind of relationships that move beyond 
traditional assistance and enduring relationships, a 
relationship in which countries move from recipients of aid to 
partners to even fellow donors.
    And on a personal note, I am truly honored to be here 
today. I am deeply committed to USAID's goals and the 
integrated role that USAID plays with the Department of State 
as well as the Department of Defense in advancing U.S. policy 
and national security objectives. So thank you for the 
opportunity to be here and I look forward to your questions.
    [The prepared statement of Mr. Day follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Royce. Thank you, Mr. Day.
    Let me bring up some testimony last December. Deputy 
Secretary Sullivan and Department of Defense Under Secretary 
Trachtenberg testified that as terrorist groups are facing 
defeats in the Middle East, we are seeing activity increase and 
expand elsewhere, including and especially in Africa.
    So we know that terrorist groups benefit from poor 
governance and instability, which is present in parts of 
Africa, and we know that terrorists abroad pose a direct threat 
to U.S. interests even here at home. The State Department leads 
on our counterterrorism efforts through train and equip 
authority and other law enforcement capacity programs. The 
committees work to ensure that this remains the case.
    And I know it has been reported that the administration 
intends to shift to combating great power competition in Africa 
and shift away from the robust counterterrorism engagement that 
we have had our eye on here, and I wanted to ask you, 
Ambassador, how will this shift in priorities impact our 
progress toward building the capacity of partner nations in 
Africa to counter these dangerous security threats themselves?
    Ambassador Nagy. Thank you very much, Chairman. During my 
last two trips to the continent just concluded a couple of days 
ago, that is one of the questions and one of the issues that I 
looked into extensively both in discussions with the host 
government, also I stopped off both in London and Paris to 
discuss with some of our allies some of those considerations. 
And this time I was with AFRICOM Commander General Waldhauser 
both in Ethiopia and then I stopped off in Stuttgart to have 
extensive discussions there and I also visited Camp Lemonnier 
in Djibouti again to discuss that various issue.
    And while I have to leave any details and specifics to the 
Department of Defense, I just want to assure you that that is 
at the top of our list in discussions to make sure that we 
continue to move forward with the counterterrorism, because as 
you say it is extremely problematic. Also during my time in 
West Africa, I had held discussions with the Prime Minister of 
Togo and with the President of Guinea, and both the Guineans 
and the Togolese now are concerned over the terrorism seeping 
into their own countries from the previous area in the Sahel.
    So I assure you that issue is very much front and center 
and we are going to continue focusing on it and coordinating 
with our friends at AFRICOM.
    Mr. Royce. I understand. But I reached out to the 
Department of Defense and they are not here today and so it 
falls on you----
    Ambassador Nagy. Yeah.
    Mr. Royce [continuing]. To convey to us the intentions 
here, because this committee is going to continue to have a 
focus on exactly this issue.
    But I will ask both of you, we have got to engage with 
countries across Africa even the most challenging countries 
with which we have significant differences. Too many policy 
priorities, frankly, depend on it. You know better than we do 
just how true this is, just as we are dealing now in Congo with 
the Ebola crisis in the East.
    So if we were take an example of wildlife trafficking, we 
have a tenuous relationship with a number of East and Central 
African countries yet we support their park rangers. We support 
their law enforcement agencies to combat poaching and 
trafficking. We try to enforce the bill we passed here to 
abolish the ivory trade, right.
    So if we shift away from working with challenging nations 
what happens to these partnerships? I would like to hear you 
articulate, Ambassador, and Mr. Day as well, what is the intent 
here? I haven't seen the plan rolled out yet so I would like to 
hear your thoughts on this.
    Ambassador Nagy. Exactly, Chairman. The partnerships in 
those critical areas will certainly go on. We have both a 
bilateral strategy and we will continue our discussions with 
AFRICOM with a region-wide strategy.
    During my visit to Stuttgart, we discussed some of these 
very issues both for the Sahel, for Lake Chad, for East Africa, 
Somalia, for Djibouti, and then also especially for providing 
for the safety and security of U.S. personnel and properties 
throughout Africa.
    So again I can't give you any specifics, but I can assure 
you that that is an ongoing discussion. We had a general 
meeting here with AFRICOM several weeks ago. I met with the 
entire AFRICOM staff when I was in Stuttgart, had the same 
discussions in Djibouti at Camp Lemonnier, so that goes on.
    Mr. Royce. My time has expired, so we will follow up----
    Ambassador Nagy. Absolutely.
    Mr. Royce [continuing]. Afterwards with you.
    Karen Bass of California.
    Ms. Bass. Thank you. Thank you, Mr. Chair. Let me just 
begin by saying that, one, I want to join in with my colleagues 
to thank you for your leadership and say that it is 
particularly meaningful that you chose your last hearing to be 
on this region of the world.
    And I just wanted to take note of that and to let you know 
that when I am in the community or in the press or whatever, 
when they are always attacking us for never working on a 
bipartisan basis, I always use this committee and I especially 
talk about your leadership, as over these years you have always 
led this committee in a bipartisan way and you will be missed. 
But I will also put you on notice that you are from Southern 
California, as am I, and so you might be retiring from Congress 
but I don't intend to let you just retire. I will be calling on 
you, in other words.
    Mr. Royce. Thank you.
    Ms. Bass. Let me fire off a series of questions and then 
leave it to the two of you to respond. You mentioned, 
Ambassador, about AGOA. And I appreciate you mentioning that 
because a number of African countries are getting concerned 
with a push toward free trade agreements that what does that 
mean for AGOA and especially recognizing that some countries 
might be ready but others aren't. And so what does the future 
of AGOA hold?
    In terms of elections coming up, we have DRC in just a 
couple of weeks, we have Nigeria in February and want to know 
what role we are playing and particularly concerned in DRC. And 
you mentioned, Mr. Day, about Ebola and that we are there, but 
it is my understanding that CDC is not allowed there and so 
maybe you can respond to that.
    So if you two could respond to both of those.
    Ambassador Nagy. Thank you very much. I think on AGOA I 
want to make it clear that AGOA goes on for another 5 years.
    Ms. Bass. Right.
    Ambassador Nagy. So we have that time to figure out how we 
want to move beyond it because we do want to move beyond it. Up 
to now, I didn't even know this until I came back to work in 
the diplomatic side, we don't have any free trade agreements 
with sub-Saharan Africa.
    Ms. Bass. Right.
    Ambassador Nagy. The only one we have on the African 
continent is with Morocco.
    Ms. Bass. Morocco, right.
    Ambassador Nagy. Meanwhile, the Africa Union is heartily 
pursuing the continent-wide free trade agreement----
    Ms. Bass. Yes.
    Ambassador Nagy [continuing]. Which we totally support. We 
think that is a phenomenal idea and hopefully at some point we 
can engage with them through that format. But right now, and 
this is of special interest to me, we would like to identify, 
start with one sub-Saharan country to explore a model free 
trade agreement that we can then perhaps expand on with other 
countries. We have had several, about a handful of countries 
come to us and ask specifically to engage with them.
    Ms. Bass. So let me--and I am sorry. I am going to have to 
cut you off to make sure I can cover it all.
    Ambassador Nagy. Sure.
    Ms. Bass. In those 5 years we know that a lot of countries 
are not even taking, aren't even able to utilize AGOA.
    Ambassador Nagy. Exactly.
    Ms. Bass. But we might think about a two-tiered approach 
because for AGOA to just go away in 5 years doesn't seem to 
make sense. But could you respond to the DRC.
    Ambassador Nagy. Elections?
    Ms. Bass. Yes.
    Ambassador Nagy. Absolutely, okay. In Nigeria, when I 
visited Nigeria I specifically looked at what we were doing on 
the elections and I was so proud of Ambassador Symington and 
his mission. They engaged with everybody. They sent everybody 
everywhere. He had me meet with the National Electoral 
Commission chair. He had me meet with the chairs of both 
parties, ask them to sign a peace agreement. Last night 
President Buhari and his party did sign a peace agreement.
    Ms. Bass. Great. DRC?
    Ambassador Nagy. DRC, 2 weeks to go, some major concerns 
remain especially with the voting machines. They have 100,000 
voting machines coming. We will see. They have a great 
opportunity to have the first peaceful transition of power 
since 1960.
    Ms. Bass. And there is also some signaling that maybe the 
elections are premature too, so coming from both sides which we 
know that that is false, but just to flag that.
    Ambassador Nagy. It is false. Hopefully, I see no reason 
why they cannot go forward.
    Ms. Bass. Ebola in DRC?
    Mr. Day. On Ebola, thank you for the question, 
Congresswoman. We are deeply concerned about the Ebola outbreak 
in the DRC. This is the tenth outbreak. It is the largest we 
have seen.
    Ms. Bass. Is CDC allowed?
    Mr. Day. The security environment in the immediate area of 
Beni town is not permissible for U.S. Government employees, but 
we do, USAID in partnership with CDC and WHO and the Ministry 
of Health of the Government of DRC does have, we have 
contractors on the ground and we are working in partnership.
    Ms. Bass. So what are we doing specifically then? We are 
providing what?
    Mr. Day. So we are doing everything from disease 
surveillance, case management, risk communications, ensuring 
that information is getting out and getting out properly.
    Ms. Bass. And you can let me know later who our partner is 
that we have on the ground there?
    Mr. Day. Of course.
    Ms. Bass. Thank you.
    Mr. Royce. Mr. Chris Smith of New Jersey.
    Mr. Smith. Thank you very, very much, Mr. Chairman. And I 
do want to join Eliot Engel and other members of the committee 
in thanking you for your extraordinary leadership especially on 
Africa. As former chairman of the committee, I thank you for 
that leadership, but it continues to this moment. So thank you, 
Ed, great job.
    I want to welcome our two very distinguished witnesses, 
thank them for their leadership as well, and Greg Simpkins, our 
former staff director on the Subcommittee on Africa, Global 
Health, Global Human Rights, and International Organizations 
working over at USAID on behalf of the continent.
    Let me just ask very quickly some questions. The festering 
crisis in Cameroon, Ambassador Nagy, you had said that the last 
thing we need is a growing radicalization in response to the 
actions of security forces. You compared it to the response to 
Boko Haram and how that actually caused it to worsen not get 
better. You might want to please speak to that and what we are 
doing to try to mitigate that danger.
    Congratulations on the breakthrough with Ambassador 
Yamamoto being deployed to Somalia. Your historic meeting in 
Eritrea, which I think is just incredible, you might want to 
comment on that briefly. And Karen Bass and I visited Ethiopia 
and met with Prime Minister Abiy in Addis last August. We were 
very impressed. We held a follow-up hearing about what we 
thought were significant progress, release of prisoners and 
all. Obviously there is so much more to be done. Please, if you 
could spend a little time on that.
    On the issue of China, we know that China is attacking the 
dollar as the world's reserve currency and of course if that 
goes our ability to hold countries to account is diminished, it 
is lessened. Fourteen African countries met in Zimbabwe in 
early spring talking about looking at the yuan as a potential 
reserve currency.
    A few months ago, African leaders met in Beijing and were 
offered some $60 billion in financing, which shows--and we know 
what they are after. They are after minerals. They are after 
wood. They are after fossil fuels, and the spread of a bad 
governance model under Xi Jinping who is cracking down in his 
own country on Muslims.
    I just had a hearing on the Uyghurs, the fact that 1 
million people are now are in concentration camps in Xinjiang, 
the autonomous region. Just the wrong country to be partnering 
with African countries given the fact that their abuse of human 
rights almost has no, maybe North Korea has very parallels 
anywhere in the world. So if you could speak to this Chinese 
influence, I know there is not much time, but on those issues.
    And on Chemonics, we did have a hearing and the 
subcommittee and the full committee has been on oversight on 
the lateness of ARVs, you know, if you are late that could be a 
death sentence. Is that being rectified, Mr. Day?
    But Ambassador?
    Ambassador Nagy. Thank you, sir. I will make this as quick 
as possible. On Cameroon, not much improvement. We were hoping 
that after the election of President Biya he would make some 
moves to open up some dialogue with the Anglophone provinces, 
he has not. Extremely disappointing, the problem goes on. We 
continue to engage, but right now unfortunately not much 
optimism, just pessimism.
    On Isaias, absolutely. I spent 2 hours with the President, 
extremely interesting points of view on the region. I hope that 
it leads to further discussion because of course we continue to 
have our bilateral problems with Eritrea and hopefully we can 
resolve them in the future going forward, but Eritrea is one of 
the key participants in the region and thanks to Prime Minister 
Abiy for opening up that political space.
    Yes, sir, your views on Ethiopian Prime Minister are right 
on. I had a chance to engage with him as well. He is continuing 
to move forward energetically not getting much sleep at night, 
so let's hope for the best with him on both his external and 
his internal changes.
    On China, very interesting. I engaged about China with all 
of my contacts and with the business communities at all of my 
stops. I do have to say that I think the bloom is finally 
starting to wear off as countries realize that China represents 
a lot of debt, not much employment created, and not necessarily 
the types of companies and business environments that they 
want, especially the young people. I think if the United States 
can capture the young people, I will leave the venal autocracy 
to the Chinese and I will stop there.
    Mr. Day. Thank you, Congressman. On the program that you 
are referencing, the Global Health Supply Chain, I will get the 
latest status on--I know there was a report that was released 
last month, but I would like to say that we certainly 
appreciate the oversight role that the committee plays and we 
are absolutely committed to ensuring the highest standards of 
accountability. But I will get a status on the report.
    Mr. Smith. Finally, I just want to thank the President. 
Yesterday, he signed into law a 5-year reauthorization of 
PEPFAR. And, obviously, I was here with many of us who were 
here when George W. Bush and our former chairmen, Henry Hyde 
and Tom Lantos, led the effort for what is now, in my opinion, 
the most successful global health initiative ever, anywhere in 
the world.
    It has ended largely the pandemic, 16 million to 17 million 
people's lives have been saved, 2 million kids have been born 
without HIV/AIDS, which they probably would have gotten as they 
were being born through mother to child transmission. So 
congratulations on that signing yesterday and thank you and I 
yield back.
    Mr. Royce. Mr. Brad Sherman of California.
    Mr. Sherman. Thank you, Mr. Chairman. It has been an honor 
to serve with you and I want to join the praise from the entire 
chorus here.
    And, Ambassador, I am thrilled to see you here, not out of 
personal respect, although I certainly have personal respect 
for you, but an administration witness who is actually 
confirmed and not holding the position temporarily, it has been 
2 years since I remember that occurrence.
    Uganda is one of the largest recipients of U.S. security 
assistance. Bobi Wine is free but still has this charge held 
over him. Has the United States made it clear to the government 
and Museveni that we are watching how Bobi Wine is treated?
    Ambassador Nagy. Absolutely. As a matter of fact, I met 
with the Angolan Prime Minister on the margins of the United 
Nations and underlined that fact and a number of other 
concerns.
    Mr. Sherman. You said the Angolan?
    Ambassador Nagy. Pardon me? The Ugandan----
    Mr. Sherman. Ugandan, okay.
    Ambassador Nagy. Ugandan Prime Minister on the margins and 
underlined that fact very strongly. We continue to do that with 
our engagements. Unfortunately, President Museveni shows no 
signs of thinking about a transition and unfortunately----
    Mr. Sherman. I want to move on to Uganda to talk about the 
North Korean contractors to their security forces. Obviously 
the North Koreans don't bring a dedication to the rule of law 
and conduct of military operations in a humane manner. The Wall 
Street Journal did a major report on this just a few days ago 
and says, in part, U.S. officials say that Trump administration 
has been instructed to remain quiet on North Korean involvement 
in Uganda over concern that speaking out would undercut the 
image of an effective sanctions regime.
    Have you been instructed to, or I will put this in the 
positive, can you now speak out against and describe what the 
North Koreans are doing in Uganda?
    Ambassador Nagy. Absolutely, Congressman. Our instructions 
are and it is always included in our points of engagement with 
all governments in Africa to urge them to comply with all 
Security Council resolutions to minimize----
    Mr. Sherman. Is Uganda complying?
    Ambassador Nagy. I cannot answer that technically. I can 
get back to you on that. I don't want to give you the wrong 
answer. I do know that we urge them at every opportunity----
    Mr. Sherman. Given the importance of the North Korean 
nuclear program how would that not be something you would 
already have an opinion on? I know the chairman has already 
answered the question for us, so I yield to him.
    Ambassador Nagy. I don't want to say that they are 
compliant right now if they are not, but I will double check 
that and get back to you. But I can assure you that that is one 
of our strongest points in every engagement with every African 
government.
    Mr. Sherman. China is using this debt trap. They have used 
it in Sri Lanka where they offer and then say, well, you didn't 
pay so we are taking this or that over. And these are sovereign 
countries, so they could simply say no, we are not going to pay 
and no, you are not going to take our port. The problem they 
have is that American and other financial institutions would 
regard that as a default.
    I wonder if you could work with me and perhaps others on 
this committee to establish an international financial order 
where if you don't pay a China debt trap debt your FICO score 
still remains at 800, that there is basically no harm, no foul. 
What can we do to make it plain to the financial markets that 
it is simply illegal for them to count against a country that 
its failure to pay one of these debt trap debts to China?
    Ambassador Nagy. I would look forward to further discussion 
on that and see exactly what we could do, because that is the 
last thing we also want to do is see these countries get into 
that trap.
    Mr. Sherman. And I assume the State Department could look 
at individual deals, identify which ones constitute this debt 
trap financing, and declare that those are particular debts 
with the nonpayment of which should not be considered by any 
financial institution doing business in the United States.
    Finally, Human Rights Watch has reported that the 
Government of Tanzania is shutting down basically everything 
involving the LGBTQ community. What is our approach to protect 
the community in Tanzania?
    Ambassador Nagy. Our approach is to raise our extreme 
concern with that, to engage with civil society every means 
that we can possibly do that to protect them, because Tanzania 
is closing political space everywhere.
    Mr. Sherman. Thank you.
    Mr. Royce. Mr. Rohrabacher of California.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman, and 
congratulations to you for making it through this difficult 
assignment of being the chairman of this committee. And I know 
I have made it a little more difficult myself for you at times, 
but we certainly appreciate your effort and those of Eliot. You 
have been a good team and done good things for America and the 
world.
    So let me just suggest that the job that our witnesses have 
had to do has been equally difficult and that trying to balance 
off stability with reform and progress in Africa has got to be 
one of the most daunting tasks of any group of our 
professionals that are out there in our Foreign Service. And I 
would note that I am going to mention a couple of negative 
things, but let me just say that that does not mean that I 
don't also recognize the positive things.
    I think one of the worst things that we have done in our 
country in terms of Africa is when our government suggested to 
Ethiopia that they could negate and they could just ignore the 
arbitration of the fight between Ethiopia and Eritrea. That did 
more to undermine peaceful solutions in Africa than anything I 
have seen in my lifetime.
    And the fact is that the peace between Ethiopia and Eritrea 
seems to be something that came from within and not something 
that we actually pushed on. In fact, the repression and the 
corruption of the Ethiopian Government over the years was not 
ended because we, the United States, pulled back from that 
corrupt and repressive regime. Instead, it came from within 
even when there were signs for all of us.
    I don't think that--I would hope that we learn from that, 
that we should really be supporting reformers as came to power 
in Ethiopia via a people's movement. And the signs of 
corruption were everywhere in Ethiopia before the current 
government, before the current Abiy came forward and led his 
people toward peace with Eritrea and actually reforms.
    Let me note that for years I have been active in pressuring 
Ethiopia to try to give back the property, especially the 
property of Americans that was confiscated by the Ethiopian 
Government. Now the chairman and I have a family in Orange 
County which we represent, the Berhane family, who owned some 
very important and valuable assets, property in Ethiopia, and 
the Ethiopian Government in the past never gave it back and 
that is because some people were profiting from that.
    I think that we should have been much more aggressive on 
that and I would hope the Ethiopian Government, the current 
government, moves on this problem because we have an American 
family whose property is not being returned. And that is wrong 
and it should be a symbol to us that that Ethiopian Government 
is not going to be, or it will be corrupt. We are going to 
watch to see what happens there and other pieces of property.
    And to the degree that we had OPIC even denied Ethiopia the 
right to have OPIC funds until that and other issues were 
resolved, I suggest we continue that but I would hope we can 
discard that type. I would hope that we could discard all of 
those pressures on Ethiopia and Eritrea and promote their peace 
and progress rather than looking at their faults. But it is up 
to them to give us the sign that they mean real reform.
    I would, as I say what can we do? We just had some 
reference to China and how that makes these countries 
vulnerable and I want to add to that but what can we do that 
would prevent corruption in these African countries? What can 
we do to regulate our own bankers not to profit by taking money 
that was earned by corruption in these African countries?
    Ambassador Nagy. Thank you very much for that. In my view, 
the best thing we can do is encourage civil society because 
they are a great watchdog on government wrongdoing. You know, 
sir, in many of these countries there has not been a tradition 
of any kind of civil society, and governments, especially 
corrupt governments, are scared to death of civil society. That 
is why they often go after them and try to close the political 
space exactly because they hold them accountable.
    And also of course a free and vigorous press, because the 
media tends to be a wonderful watchdog as well, and then a 
level playing field so that other businesses besides the ones 
from the large country in East Asia have an equal chance at 
contracts and dispute resolution. Thank you, sir.
    Mr. Royce. Greg Meeks, New York.
    Mr. Meeks. Mr. Chairman, I want to join the chorus in 
thanking you for your leadership as chairman of this committee 
and the way that you have conducted yourself and I do think it 
says a lot about this hearing being your last is to show your 
continued focus on the continent. I have traveled with you 
several times to the continent. I have seen firsthand and I was 
so inspired by what you do on this committee I decided to take 
your old office. [Laughter.]
    Thank you, gentlemen, for being here. I actually just came 
back from South Africa with Global Citizens and they had 
pledges to raise for worldwide $7 billion as a result of what 
they are doing to eradicate poverty by 2030 and moving quite 
briskly in trying to get attention particularly to the 
continent of Africa as to what we need to do.
    Unfortunately, oftentimes or as just happened at this time 
while I was in Africa I asked about U.S. involvement, U.S. 
investment, U.S. trade, and they are saying that they don't see 
enough of us and so they have to deal with the individuals that 
seem to have interest. Oftentimes that has been China.
    And so I know and I am, as you have indicated how Africa's 
on track to have 25 percent of global population in just 30 
years, I believe that leveraging the resources of the U.S. 
Government to support greater private sector investments which 
I think is key is a win-win. And so from your perspective, 
especially with DFI's ability to make equity investments in 
Africa, will it encourage U.S. financial investors such as 
pension funds, because that is, you get everybody to scale up 
their investments alongside the new DFI, putting it together, 
working in a combination way to help our presence and make a 
difference and have some real equity investments in Africa.
    Ambassador Nagy. Thank you, sir, absolutely. I have found 
so much enthusiasm amongst American businesses wanting to take 
their money to Africa because they have so much money available 
right now looking for a place. And at the same time, in all my 
travels I found the African governments equally enthusiastic at 
wanting to bring U.S. businesses because U.S. businesses offer 
something totally different than what Chinese investors do.
    That is why I really want to thank you all for the BUILD 
Act, because I think it finally puts some arrows in our quiver 
that we didn't have before because it offers, with its $60 
billion plus the possibility of equity investment, it offers 
opportunities that we have not had before. And I can tell you 
that the U.S. business community in Africa is enthusiastic 
about it and all of the African governments we engage with 
really wanted to know more about it. So we are going to 
energize our Embassies to be there to come up with bankable 
projects and to engage directly. And I told the African 
governments, I can push you as businesses, but they need to do 
the pulling by putting in place environments that actually 
welcome and are fair to you as businesses. Thank you, sir.
    Mr. Meeks. And we need to work and continue that because I 
know even if you look at the work of China doing in there, but 
even in China, China looks at the U.S. businesses, at least the 
Chinese they wouldn't want to work for our companies in China. 
So I know what we can do a better job in Africa than what we 
have.
    And also I know that USAID created a partnership with NASP 
which was very important to target infrastructure investments 
in Africa and I know that some of my New York pension funds 
have been involved including the New York State Common 
Retirement and the New York City Employees Retirement Funds. 
And I think this is a tremendous initiative that moves in the 
right direction and we oftentimes before when we want to divest 
from bad things, we want to make sure now we are investing in 
that regard.
    And so I am a big supporter of initiatives like NETA, 
however, what my concern is and what I think that would give us 
even greater more investments would be is the fact that there 
is a lack of diversity and inclusion of small, women, and 
minorities in development finance opportunities at USAID and 
OPIC. So how can we do better, because I think that diversity 
will help us more on the continent also in that regards.
    Mr. Day. Thank you, Congressman. You are absolutely right. 
We at USAID believe we are facing immense challenges of course 
on the African continent and we truly believe that those 
challenges cannot be addressed with USAID official development 
assistance alone. The private sector is absolutely critical to 
this. In fact, Administrator Green is actually rolling out a 
USAID private sector engagement policy as we speak.
    So this is something that is at the forefront of our vision 
for how USAID is going to be engaging with our African partners 
so we fully agree with your vision as well.
    Mr. Meeks. I yield back. And I just look forward to working 
with you because we have small, minority, and women owned 
businesses that I know are very interested if we can work 
together on that.
    Mr. Chabot [presiding]. Thank you very much. The 
gentleman's time has expired. I now recognize myself for 5 
minutes and I would like to start off with, a couple of our 
colleagues have already talked about, China. I know Mr. Sherman 
did and I think Mr. Smith did as well.
    But Ambassador Nagy, let me ask you this. If you were in a 
room with a number of, let's say, African countries 
specifically, but they could be from other parts of the world, 
where they were really trying to decide whether it made sense 
to take advantage of the loans and opportunities that China is 
putting out there versus working with the United States or 
other countries, banks, et cetera, what would you tell--and we 
have already talked about some of this. But what would you tell 
them to look out for with China versus why it makes sense to 
work with the U.S. or the West?
    Ambassador Nagy. Thank you very much for that question. 
What I would tell them to look out for is, number one, are they 
going to bring over every single employee above turning a 
shovel from China instead of hiring locally? How much 
technology and professional transfer will there be when the 
project is done? How good is the quality of the work that will 
be done? Will they also bring over shopkeepers who will open up 
shops to service the company's employees who will then displace 
African mom and shopkeepers?
    And when everything is done how much debt will there be 
left, and by the way what will the environmental impact be? 
Will there also be wildlife trafficking? Maybe timber cutting 
in addition to that. So I would urge them to look at the 
entirety of the project and what will be the true benefits not 
only to putting down that road but to the country at large.
    Mr. Chabot. Thank you. And having seen and followed this 
closely firsthand for quite a few years now, what do you if 
they said, well, what do you think on these things will happen, 
what would you expect? Could you answer those questions that 
you just asked what is likely to happen?
    Ambassador Nagy. Well, I think that there is, as I said, a 
shift in perceptions of the type of projects that they provide. 
I just have to tell you one of the things that really, really 
irritated me during my trips to Africa is you go to an African 
city and there is a stadium invariably built by the Chinese.
    And then the people say to me, well, what have the 
Americans--I said, well, what about the millions and millions 
of people we keep alive because of PEPFAR, what about the 
tremendous educational programs that we have done to educate 
the young people. And as I mentioned before, the young people 
in Africa really do get this. They want American companies. 
They want the type of expertise Americans have. They want the 
transfer.
    So I am actually very encouraged by the future and I think 
that this BUILD Act will now really give our businesses some 
weapons to compete fairly.
    Mr. Chabot. Thank you very much. Ms. Bass was asking a 
question before about and you were talking about the bilateral 
free trade agreements, because I know the administration, 
bilateral agreements are more appealing than regional deals, I 
understand that. I am basically a free trader and I will accept 
both.
    But getting back to the bilateral agreements in sub-Saharan 
Africa, you were about to say, I think, what countries are we 
kind of working with or thinking about and then she had a 
limited amount of time so you never really got into that.
    Ms. Bass. Thank you.
    Mr. Chabot. What countries are we talking about?
    Ambassador Nagy. Can I respectfully not mention them yet, 
because we haven't really fully engaged on that yet. So we are 
at the point of actually just looking at possibilities and I 
would not like to offset progress before we can start.
    Mr. Chabot. How many are we talking about?
    Ambassador Nagy. At least four have come forward and then 
there are a couple of others that we would like to look at on 
our own.
    Mr. Chabot. Okay. Thank you.
    Ambassador Nagy. Thank you, sir.
    Mr. Chabot. We mentioned, I think, briefly before Museveni 
in Uganda too. My very first codel was back in 1997 and one of 
the countries we visited was Uganda and I remember particularly 
memorable because Lady Di happened to die while we were on that 
version so I remember specifically when this was. And I 
remember Museveni at that time was being talked about as the 
new African leaders and he had been in office, what, 12 years 
or so then, so he was getting a little long in the tooth at 
that point.
    Well, we are two decades later. And don't get me wrong, I 
think compared with previous and obviously in Uganda what a 
breath of fresh air. He has been there awhile now. Could you 
comment on that without asking a specific question about?
    Ambassador Nagy. Absolutely. I have to tell you, sir, that 
actually Museveni was one of my early heroes because of his 
willingness to engage on HIV/AIDS when others were not. And at 
that time Uganda's ABC strategy was the world leader in 
confronting HIV/AIDS and also he did quite a lot of empowering 
women politically in Uganda.
    Unfortunately that was decades ago and the decades go on 
and at some point leaders have to consider political 
transitions and right now there seems to be an awful lot of 
focus on keeping in power instead of the future of Uganda.
    Mr. Chabot. Thank you very much. My time has expired.
    The gentleman from New Jersey, Mr. Sires, recognized for 5 
minutes.
    Mr. Sires. Thank you. First, I would like to thank the 
chairman. He is not here, but 26 years of service always in a 
bipartisan fashion in this committee and I just want to thank 
him even though he is not here.
    Mr. Ambassador, I sit here and I listen to all the things 
that you have said, all the things that you are accomplishing, 
and I can only imagine it must be a very difficult job for you 
to do especially with the rhetoric coming out of the White 
House when he calls shithole countries, he calls people from 
Western Hemisphere criminals, sick, and everything else.
    When you get off the plane how do you deal with that? I 
mean do you ignore what the President says? I don't want to put 
you on the spot, you don't have to answer if you don't want to. 
But I have got to tell you, it has got to be very difficult for 
you getting off a plane and trying to work these deals.
    Ambassador Nagy. Congressman, I have to be absolutely 
honest. I have never had a problem getting off the plane 
because I engage and talk about the wonderful things that 
America as a whole is doing and I also talk about Africa is one 
of the leading nonpartisan issues of our day and programs, 
involvement, engagement.
    Mr. Sires. I mean we all know China's effort in Africa and 
certainly in the Western Hemisphere. Basically it is the same 
tactics, wouldn't you say so, what they are doing in the 
Western Hemisphere in countries? I mean I just read an article 
where in Panama, China bought a big piece of property and what 
they are trying to do is build this warehouse to equal Amazon 
and they want to be the Amazon of the Western Hemisphere. I 
guess the tactics are the same and how do you coordinate 
fighting this?
    Ambassador Nagy. I have to admit, and this is one of the 
things I told my African interlocutors is that up to now I have 
not blamed them in dealing with China, because when there was a 
knock on the door for an investor and they opened it and only 
China was standing there that is who they had to deal with. I 
want to make sure that the next time there is a knock on the 
door that there is American investors standing there as well 
and that we can present what is more attractive about dealing 
with the United States of America. So I would like to be very 
aggressive in pursuing that, sir.
    Mr. Sires. And in terms of you are talking free trade, free 
trade, free trade, and again the rhetoric out of the White 
House seems to be let's look inward, not let's look outward. I 
mean it is just, to me it is two and two don't really add to 
four with this particular administration.
    Ambassador Nagy. Well, I get a lot of support from the 
White House on expanding the free trade agenda and on engaging 
U.S. businesses in Africa, so I can tell you that is my 
experience, sir.
    Mr. Sires. All right. I won't put you on the spot anymore. 
Thank you very much. I yield back.
    Mr. Connolly. Would my friend yield?
    Mr. Sires. Absolutely.
    Mr. Connolly. I thank my friend.
    Ambassador Nagy, I appreciate the diplomatic skill with 
which you answered my friend from New Jersey, but that White 
House support certainly doesn't extend to USAID programming in 
Africa. I mean last year he cut it 37 percent in his budget and 
this year he has cut it 33 percent. How do you explain that to 
African nations when you travel? We don't mean it? We are 
kidding? We are counting to Congress to restore it? Don't read 
anything into it in terms of the value we put in the 
relationship or Africa? And what does it mean in terms of the 
void it creates vis-a-vis China that has fortyfold increased 
its trade posture vis-a-vis Africa in the last 20 years.
    Mr. Day?
    Mr. Day. Thank you, Congressman. I would also echo 
Assistant Secretary Nagy's comments in that every time I am on 
the continent USAID and our officials are welcomed with open 
arms. And that is, I think, a reflection of the seven decades--
--
    Mr. Connolly. Mr. Day, excuse me. That really was not my 
question. I have been to Africa too. I know USAID very well. I 
helped write the last foreign aid bill passed by Congress in 
1985. I have been around awhile. My question wasn't are you 
welcome, my question was how do you explain the fact that the 
administration you represent cut their budget 37 percent last 
year and another 33 percent this year?
    We didn't go along with it because we actually see the 
primacy of the relationship and the fact that is the world's 
fastest-growing market. But nonetheless, a statement of value 
is being made to those African countries and I am asking you 
how you handle that on the ground. I am repeating, I am 
building on the question my friend Mr. Sires asked Ambassador 
Nagy.
    Mr. Day. Congressman, at USAID we are laser-focused on 
ensuring that taxpayer investments on the African continent are 
deployed in the most efficient and effective manner and to the 
benefit of the American people and the African people as well.
    Mr. Chabot. The gentleman's time has expired.
    Mr. Connolly. Well, thank God, because I don't know what 
that answer meant.
    Mr. Chabot. I thought it was a great answer.
    The gentleman from South Carolina.
    Mr. Connolly. I bet you did.
    Mr. Chabot. Mr. Wilson is recognized for 5 minutes.
    Mr. Wilson. And thank you, Mr. Chabot. And I want to join 
with everyone commending Chairman Royce for his service. It is 
really an indication of our appreciation of his service, the 
portrait which is hanging up front which indicates again what 
an extraordinary person Ed and his wife Marie have been on 
behalf of our country.
    And, Ambassador, thank you for being here. Mr. Day, thank 
you. I saw your background with the International Republican 
Institute. I was a volunteer with IRI. I know what a difference 
it makes promoting freedom and democracy around the world. 
Also, your work now with USAID with Administrator Mark Green, 
how incredible.
    As we travel around the world it is so impressive to see 
the signs as I saw in rural Afghanistan of a school that had 
been built by USAID, to see the food supplies being provided to 
the refugees in Sudan, to be present with Chairman Royce in 
Tacloban, The Philippines, to see the recovery efforts for 
persons from Super Typhoon. USAID makes such a difference and I 
hope more American citizens find out how significant it is.
    With that, Ambassador, this year has been very hopeful with 
Ethiopia and Eritrea signing an agreement in September that 
ended the 20-year conflict and reopened land crossings to allow 
people and goods to move freely between the countries--a 20-
year war concluded. To what extent can the very positive 
reforms implemented by Prime Minister Abiy Ahmed in Ethiopia 
have toward assisting internal challenges in Eritrea?
    Ambassador Nagy. Indeed, sir, the changes have been 
incredible. In my 40 years of following Africa, I don't think I 
have ever seen anything that positive. And I would like to 
ensure you that the United States Government is engaged in a 
whole of government response to figure out how best we can 
support those openings both on the internal side with Prime 
Minister Abiy opening political space for his own citizens, but 
also on the external side as literally waves of peace wash over 
the whole subregion.
    And as Ethiopians like to say, they are renaming the Horn 
of Africa to the Hope of Africa and in many respects that is a 
true characterization. So we are sending teams to engage 
directly with different components of the government and we 
have been invited to engage with many sectors and institutions 
in Ethiopia to help rebuild them in a noncorrupt, totally 
different model. Thank you, sir.
    Mr. Wilson. Well, again, your positive attitude just is 
reflected by the hope of Africa. That is great. Additionally, 
what are the prospects for reestablishing diplomatic relations 
between Eritrea and the United States?
    Ambassador Nagy. Sir, thank you for the question. As I 
said, when I was in Eritrea my dream is to eventually for the 
United States to have the same positive relations with Eritrea 
that we have with Ethiopia now. We have started the first 
steps. We will continue the steps and hopefully it will lead 
there. We still have some outstanding bilateral issues, which 
they very well know, but we will deal with them one at a time 
and it is a very valuable country to have as a friend and we 
look forward to that, sir.
    Mr. Wilson. Well, again it has just been so hopeful to see 
the developments in Ethiopia and now Eritrea too, hopefully. 
Next, what is the extent of African-based terrorist groups, 
what challenges do they have as a direct threat to the American 
people?
    Ambassador Nagy. Thank you, sir. The problems with those 
terrorist groups are as they occupy space which is not occupied 
by governments it gives them freedom of action. And they may 
start off as local terrorist groups, but as we can see that 
they can then develop into interregional and even 
intercontinental types of terrorist groups especially once they 
affiliate with global ISIS or al-Qaeda. So they present an 
imminent and a long-term danger, sir.
    Mr. Wilson. And we saw, sadly, the attack last night in 
Strasbourg.
    Ambassador Nagy. Exactly.
    Mr. Wilson. So we need to be ever-vigilant. And with that, 
what more can the United States working with our African 
partners do to prevent the spread of extremist ideologies to 
protect the people of Africa and around the world?
    Ambassador Nagy. Sir, that involves what we are doing is 
closely working with the African states with outside interested 
parties such as France, the European Union, the United Kingdom, 
African Union, and the United Nations, and with the various 
U.N. peacekeeping forces, because they are an imminent threat, 
sir.
    Mr. Wilson. Well, again thank you for your efforts. And the 
thought of having the agreements between Eritrea and Ethiopia, 
which would have been unimaginable, have occurred so best 
wishes for continued success. Thank you.
    Mr. Chabot. Thank you. The gentleman's time has expired. 
The gentleman from Rhode Island, Mr. Cicilline, is recognized 
for 5 minutes.
    Mr. Cicilline. Thank you, Mr. Chairman. I too want to begin 
by thanking outgoing Chairman Royce for his extraordinary 
leadership of this committee and the bipartisanship which he 
has always demonstrated. And I hope the letter that you sent to 
us about your tenure as chairman you will make an official part 
of the record, because I think it really recounts in a very 
meaningful way the great work that has been done under your 
leadership. And I just want to thank you, Mr. Chairman.
    Mr. Chabot. Without objection, so ordered.
    Mr. Cicilline. Thank you.
    Thank you to our witnesses. Ambassador Nagy, I would like 
to start with you. As I am sure you are aware, U.N. 
peacekeeping missions are currently deployed in several 
countries on the African continent including South Sudan, Mali, 
Central African Republic, and the Democratic Republic of Congo 
where they work to promote stability in conflict-torn 
societies, protect civilians from violence, and facilitate 
humanitarian assistance to communities in need as well as 
monitoring human rights abuses and supporting the rule of law 
and the creation of democratic institutions.
    The U.N. successfully wound down two peacekeeping missions 
in Liberia and Cote d'Ivoire just this year. The United States 
has long supported U.N. peacekeeping operations as a cost 
effective method of conflict mitigation that helps prevent 
fragile states from collapsing, keeps civil wars from morphing 
into unwieldy regional disputes, and creating the conditions 
necessary for long-term, sustainable peace.
    In fact, the GAO recently found that U.N. peacekeeping 
missions are eight times more cost effective than a unilateral 
U.S. military engagement. Yet, Secretary Pompeo recently made 
some troubling assertions about U.N. peacekeeping missions 
claiming that they drag on for decades and bring us no closer 
to peace.
    I would certainly welcome a clarification on the 
Secretary's remarks. And, specifically, my first question is, 
does the Trump administration, which has voted to renew the 
mandates of 12 U.N. peacekeeping missions since it took office, 
still find value in their work?
    Ambassador Nagy. Thank you very much, Congressman. Yes, 
absolutely. There are phenomenally effective U.N. peacekeeping 
missions, then there are some others that may be less 
effective. And I think that is the whole focus of the 
administration is to evaluate each mission on its own terms to 
see if it is accomplishing its tasks, or if it is not do the 
tasks need to be realigned. For example, I would like to point 
to the one in Mali.
    In February, the Secretary General, the U.N. Secretary 
General will be issuing a report specifically on how that 
peacekeeping mission is achieving its mandate and will take a 
look to see if it needs to be modified or adjusted or whatever 
else needs to be done, because as you know, sir, Mali is in a 
very critical situation and there are a number of other 
peacekeeping missions like that.
    So absolutely, I agree with you totally, even though we are 
paying, I think, right now 28 percent of the total cost of 
peacekeeping missions. Some are phenomenal.
    Mr. Cicilline. At a fraction of the cost of what it would 
be if it were a military engagement obviously.
    Ambassador Nagy. Absolutely.
    Mr. Cicilline. I hope you will share those strong 
sentiments with Secretary of State Pompeo. Do you see, Mr. 
Ambassador, any missions today that you think should close?
    Ambassador Nagy. Not any today, sir.
    Mr. Cicilline. Okay, thank you. As you are aware, the U.N. 
peacekeeping mission to Liberia wound down this year after 
nearly 15 years in that country. Would you characterize that 
mission as a success and can you also tell us what assistance 
the U.S. is currently providing bilaterally to continue the 
progress and the momentum in Liberia?
    Ambassador Nagy. I would consider that one a success, 
absolutely, because I remember when it started under ECOWAS and 
then it transgressed to the U.N. But I will turn that over to 
my colleague from USAID for what we are doing to continue to 
support the country.
    Mr. Day. Sure. Thank you, Congressman. We of course have 
had a tremendous partnership with the Liberian Government for a 
number of years and we have a robust program based in Monrovia, 
everything from humanitarian assistance to health to supporting 
civil society, democratic governance. There are still 
tremendous challenges of course. Extreme poverty is one of the 
major issues that we are dealing with.
    But we have a good partner in the Liberian Government and 
the new President, President Weah, has been actively engaged 
with USAID programs. And so where we have good partners and 
good partnerships we feel like USAID programs are the most 
successful, so we have a very good partnership with the 
Government of Liberia.
    Mr. Cicilline. And, finally, if I would ask both of you to 
comment on the current status of our work in the Central 
African Republic. I traveled there at a time when I think it 
was sort of a very critical moment and either the progress 
could continue or there could be a significant retreat of that. 
And I know there has also been some new reporting that the 
Russians have engaged in a significant way. So if you could 
each share the current status of CAR.
    Mr. Day. From the USAID perspective we are primarily 
focused on health and humanitarian assistance for the people of 
CAR.
    Ambassador Nagy. From the diplomatic perspective we are 
really, really encouraging the African Union to be hyper-
engaged in the peace process there, because the Russians are 
looking at the Central African Republic as an opportunity and 
they are very much trying to work into a parallel peace process 
to put themselves forward. So we really are calling on the 
African Union to be very engaged and to make sure that there is 
only peace process to bring the country back, sir.
    Mr. Cicilline. Thank you very much. I yield back, Mr. 
Chairman.
    Mr. Chabot. Thank you. The gentleman's time has expired.
    It was noted earlier today it is the last Foreign Affairs 
Committee meeting for a number of members of this committee and 
one of those is Darrell Issa from California, who I would just 
note for the record has been an extremely valuable and 
thoughtful member of this committee for a long time and thank 
him for his service as well. And the gentleman is recognized 
for 5 minutes.
    Mr. Issa. Thank you. That is very kind. It has been a quick 
18 years, but I am leaving it with good people behind and this 
committee, I am sure, will function next Congress in the same 
bipartisan way it has for so many years.
    I have got a bunch of questions and let me try to go 
through them. The first one is an umbrella one. With EXIM Bank 
currently not able to fully function, with good intention by 
USAID and the funding you have, obviously USTDA could be 
mentioned in that group and OPIC, all of it together in Africa, 
if you had to say what is our effort worth and what is China's 
effort worth in dollars and capability, how would you measure 
those, our dollars and capability and their dollars and 
capability, based on the effort they are placing and the money 
they are putting in?
    Mr. Day, you probably see it every day.
    Mr. Day. Thank you, Congressman. I say that is an excellent 
question. I think when we think about how USAID and the 
Americans engage with our partners on the African continent 
compared to other potentially----
    Mr. Issa. No, and I want you to answer that. I fully buy 
that we go in there giving. We go in there with a real effort 
to develop countries and their own independence. We go in there 
as a gift to the rest of the world for safety and security, and 
perhaps the Chinese have a different intent.
    I want people to understand for the record, if we are 
looking at the size of the army, so to speak, the size of the 
guns, the size of the programs coming in from just China, there 
are players, Russia and so on, and their effort in dollars and 
capacity regardless of our good intention and regardless of the 
goodwill we have, what are you faced with, their efforts, your 
efforts, and some of the results?
    Mr. Day. From a cash perspective in terms of an infusion 
into Africa, we are not on the same level with China. However, 
the value, the superior value proposition----
    Mr. Issa. Meaning we give more almost anywhere in the 
world, but they put more into Africa in dollars.
    Mr. Day. In cash dollars. However, the superior value 
proposition of American innovation and American companies 
investing and two-way trade between Africa and the U.S., I 
don't think that is a comparison either. I would put my money 
on America every day.
    Mr. Issa. Well, and there is one follow-up question that I 
have been keenly looking at for many months. The difference in 
a country which goes to based on, if you will, the 20- or 30-
year cost of building out, and particularly Power Africa, if 
they go out based on lowest initial cost, isn't it true that 
China wins every time?
    And if they go out based on what is going to happen over 
the life of those loans and support and maintenance that in 
fact many Western countries including the United States almost 
always would be better choices. Is that a fair statement?
    Mr. Day. I believe that is a fair statement.
    Mr. Issa. So one of the questions I have because a lot of 
what we do as America is to help people temporarily, but we 
always use that term that if you teach someone how to fish they 
will be fed for a lifetime. What are the winning programs in 
Africa that you either have or want to have that are funded, 
but you might want to have funded more to teach them how to 
fish so that the decisions and the programs and the long-term 
Power Africa are sustainable and go further? What is it that we 
need to do?
    Mr. Day. You are absolutely right. I think Power Africa is 
probably the shining example of a successful program in Africa 
that really catalyzes American investment. I certainly believe 
that a whole of government effort to coordinate all of the 
interagency resources to bring those to bear to actually go to 
our African partners and demonstrate the superior value 
proposition that the U.S. has I think would be well received.
    Mr. Issa. Okay. One last question, if I may. I was at the 
change of current leaders in Zimbabwe some time ago. It is one 
of those things you only get to do every 36 years or so. We, 
the United States Government, are currently keeping out of 
Zimbabwe, either a little bit here and maybe more for the 
record.
    What is it that you could accomplish if you were allowed to 
come up with systems that would isolate the current government 
from USAID or programs but at the same time would have some 
positive? You are engaged in war-torn countries, you are 
engaged in other dictatorships. Zimbabwe uses only $20 bills 
for their money and they have been cut off from everyone except 
basically the South Africans for a long time.
    So, let me rephrase that. The Chinese are actively in 
there, but would you give me your, for that particular country 
because I was so recently there.
    Ambassador Nagy. Yes, sir. And, interestingly enough, we 
had a trade delegation from Zimbabwe not long ago visit here 
and they were warmly welcomed. They had some of the government 
ministers with them. And we told them exactly as did I in my 
meetings with the high level officials, if they could take a 
couple of steps then we could start reevaluating our whole 
relationship because Zimbabwe has phenomenal potential.
    And I am passionate about Zimbabwe because my triplets were 
born there and I know what the country can do. So if they could 
very quickly return to a prosperous path if the government 
would just--they are saying the right things. It would be nice 
if they actually did some of the things that they are talking 
about.
    But I think the United States business community would 
stand ready to engage with them very quickly because there are 
a number of sectors where we could have very fruitful 
relations, sir.
    Mr. Chabot. The gentleman's time has expired.
    Mr. Issa. Thank you. And if you would just for the record 
share with us, if you can, the request you made that would 
allow for that.
    Ambassador Nagy. Is that okay, sir?
    Mr. Chabot. Yes, briefly.
    Ambassador Nagy. All right. Yes, very quickly. There are 
two acts that they have passed, one is the Public Order and 
Security Act and the other is the Access to Information and 
Protection of Privacy Act, which is if they would just withdraw 
those that would be quite significant. Thank you.
    Mr. Issa. Thank you. Thank you, Mr. Chairman.
    Mr. Chabot. Another gentleman from California, Mr. Bera is 
recognized for 5 minutes.
    Mr. Bera. Thank you, Mr. Chairman. And I will echo the 
remarks of our colleagues with thanks to Chairman Royce as he 
moves on to his next endeavors as well as the other members of 
this committee. And certainly with incoming chairman Eliot 
Engel hopefully we will continue to operate in a bipartisan 
way.
    Also, while I disagree with the President's approach to 
foreign policy, I appreciate the lifetime of service of our 
diplomats and our aid and development workers all around the 
world and applaud the work that both of you are doing. We have 
had Ambassador Green in front of this committee several times 
and I do think USAID is moving in the right direction looking 
at capacity building and certainly expect Congress to support 
that.
    So given we have talked about the potential in Africa. If I 
were to just frame the challenges that we see, we obviously see 
a tremendous youth bulge that is occurring. Thirty thousand 
Africans entering the job market on a daily basis, that is a 
tremendous challenge. We see millions of people displaced 
throughout Africa. We see future challenges of food and water 
and security on the continent which will continue to create 
some instability.
    I was just in Sierra Leone, a fledgling democracy that is 
coming out of years of civil war and had tremendous challenges 
with the West African Ebola crisis where we are engaged, but I 
would say I saw more Chinese while I was there as well, which 
again presents a challenge that many of my colleagues have 
talked about.
    So we are framing the challenges, but I am an optimist and 
we have been spending some time trying to understand how PEPFAR 
came about being in a Republican administration with Democratic 
Members of Congress. And really underlying that was a national 
security threat assessment that if millions of people died of 
HIV/AIDS it would create massive instability on that and create 
governmental instability. And what we have just laid out 
suggests that if we don't take a long-term view of these 
challenges in Africa you will continue to have an unstable 
continent.
    I think my question to both of you is as Congress reasserts 
its authority and Members of Congress tend to be here longer 
than one administration to another, we have to take a 
nonpartisan approach to looking at Africa in the long term and 
often we don't. We shift from one administration. So that is if 
we were looking at long-term strategies, what would that time 
frame look like and then if you were recommending Congress 
looking at what the foundational strategies would be for the 
continent, what would you recommend our focus be? And I think 
the BUILD Act is a real strong first step.
    Ambassador Nagy. Exactly, sir. I want to again congratulate 
the Congress with the BUILD Act because that has strengthened 
my talking points when I go to Africa. The other one I would 
really point to is the Young African Leaders Initiative, 
because as you said, sir, Africa's future is its youth and 
there is going to be millions and millions and millions of 
young Africans that are going to be wanting good jobs and if 
they don't get them they will either go to Europe or choose a 
very destructive path.
    So programs such as that I have found to be so successful 
because everywhere I go to visit in Africa I run into the Young 
African Leaders Initiative network and those people are so 
dynamic, so entrepreneurial, and we are teaching exactly the 
skills that the future Africa will need.
    Mr. Bera. The programs like that don't require a lot of 
taxpayer dollars and in fact they are capacity building.
    Ambassador Nagy. No, they don't. And no, they are just 
phenomenal programs. So those are the two that--how we can 
encourage foreign direct investment from U.S. businesses and 
how we can build on this huge youth bulge to make sure that 
they look to the Western models for the future and not other 
places.
    Mr. Bera. And then, Mr. Day, if I could just ask a quick 
question. As we think about aid and development in the 21st 
century, we have already touched on it won't just be U.S. 
taxpayer dollars, it will be trying to leverage private 
investment, public investment, and then also working with the 
international community as well. And if you could just briefly 
give a vision of what you think aid and development looks like 
in the 21st century.
    Mr. Day. Thank you, Congressman. I think Administrator 
Green has laid out a very clear vision for how he views USAID's 
future and that future is what we term the journey to self-
reliance, which is working with our African partners to help 
them on their path toward self-reliance, which we ultimately 
define as their ability to plan, finance, and implement their 
own development solutions to their own challenges.
    And so if we have the level of commitment which is so 
critical and we have a good partner on the ground, then in many 
cases our programs are more successful, we get much better 
results. And so the private sector is absolutely a critical 
component of this, but it is also important that we have good 
partners on the ground. And in many cases we do, in some cases 
we do not.
    Mr. Bera. All right. My time has expired.
    Mr. Royce [presiding]. We will go to Mr. Mike McCaul of 
Texas.
    Mr. McCaul. Thank you, Mr. Chairman. I just got out of my 
monthly threat briefing as chairman of the Homeland Security 
Committee, and I think the good news is that in the last--well, 
in 2016, the threat from ISIS was extreme. External operations, 
we were arresting one per week in the United States it seemed 
like, and I think over the last 2 years we have crushed them 
and the so-called caliphate.
    But the threat hasn't completely gone away. I think the 
good news is it has been downgraded to some extent, but then 
they have moved. They are still maybe in the Euphrates area, 
but the threat seems to be emerging more in Africa. And so I 
know there are about 10,000 ISIS and al-Qaeda jihadists in 
Africa today and to put that in perspective, before 9/11 there 
were about 100 al-Qaeda that existed.
    So it concerns me. I think, and I look forward to next 
Congress in this committee focusing on this issue because I 
think we are going to be looking at foreign adversary nation 
states, but I think the threat of radical Islamist terror is 
going to be focused in northern Africa and the Sahel.
    Then-Congressman Pompeo and I, we traveled to Sinai and the 
Egyptian Sinai Peninsula, Camp North, they evacuated it the day 
we left due to the threat. We were in Tunisia, got briefed by 
the Libyan team in exile. It is very much a hot threat there 
and it is very hot in the Sahel region. We passed, thanks to 
the chairman, my Trans-Sahara Counterterrorism Partnership Act 
out of this committee which authorizes a program that you all 
are working on. I think it is very valuable and I just wanted 
to maybe just get your general assessment of what I am talking 
about in terms of the threat in Africa and what can we do.
    And we also passed a fragility of states bill which I think 
deals with fragile nations where terrorism can breed out of. 
Can you kind of talk about holistically what the State 
Department is doing to counter this threat?
    Ambassador Nagy. Yes, sir. Thank you very much. Indeed, the 
threat is increasing in Africa especially in the Sahelian 
region, a whole number of reasons which would take a long time 
to discuss, but basically the fundamental issue remains. We can 
get rid of the terrorists thanks to the efficiency of forces 
and allies and people that we are with, but once you get rid of 
the terrorists you have to fill that space with the government 
because if you don't then another group of terrorists will come 
along, which is in many cases worse than the last group, which 
is exactly what had happened in Somalia up to now.
    So we are working very, very closely with the French, with 
the Malians, with the Nigerians, with the Chadians, with this 
new G5 force that five of the countries have set up and we are 
supporting them exactly, so that not only is it a military 
campaign but it is also a governance campaign that once you 
recapture territory then you do start providing the services 
that the people demand so it is not another terrorist group 
that comes along and does the exact same thing, sir.
    Mr. McCaul. I agree. I think Libya is a good example where 
even the military can't get General Haftar in the east and one 
in the west and they can't get--if you have no military, you 
have no governance and so it is a big problem there.
    Mr. Day?
    Mr. Day. I certainly agree with the Assistant Secretary's 
comments. Particularly in the Sahel there are just chronic 
vulnerabilities, water scarcity, low access to education, low 
access to health services and we think that this is absolutely 
critical to address. And so we have robust programs throughout 
the region, particularly in Burkina Faso and in Niger that is 
where our best partnerships are, but we continue to be very 
concerned about the situation.
    Mr. McCaul. Well, thank you. And I look forward to 
addressing this again next Congress. And with that, Mr. 
Chairman, I am going to yield back the balance of my time.
    Mr. Royce. Well, thank you, Mr. McCaul. Thanks for 
introducing that resolution for wildlife trafficking and rhino 
horn in China. I think keeping Beijing engaged on this issue is 
important.
    Mr. McCaul. And will the gentleman yield? I think that is 
another issue where they illegally sell rhinos and wildlife and 
then it is a terror-financing operation. And so I look forward 
to--thank you, Mr. Chairman, for----
    Mr. Royce. Yeah, we appreciate the fact that when we put 
the legislation forward to abolish the ivory trade that Beijing 
stepped up and closed those carving stations. But keeping the 
pressure on is going to be important.
    We go to Lois Frankel of Florida.
    Ms. Frankel. Thank you. It is sort of sad that I say thank 
you, Mr. Chair, to you, Mr. Royce, for the last time here. I 
just want to thank you. It has been such an honor and a 
pleasure to serve with you. And I think it is very fitting, I 
think of how many times I have ended up being here with you at 
the end with hardly anyone around.
    So I think it is----
    Mr. Royce. You always saw these hearings through and thank 
you.
    Ms. Frankel. And so did you.
    And I want to thank you two gentlemen for the work that you 
do. I want to start with a story and then I will make a point, 
and it is the story of a 30 year old HIV positive mother of two 
living in Mozambique who lost her husband to AIDS last year and 
she turned to a local clinic for help when she discovered she 
was HIV positive, the clinic gave her medicine to stay alive 
and healthy.
    Now because of the expansion and expanded global gag rule, 
her clinic is one of dozens in Mozambique that has been forced 
to shut down and she has nowhere to go. Now I want to be kind 
to you because I don't think you invented this policy, but I am 
very alarmed. I am very worried about what is happening to 
women all over the world because some of the policies of the 
Trump administration.
    And I will say this. No matter what you want to talk about 
and talk about progress, if we don't advance girls and women 
there will be no progress. There will not be economic progress, 
there will not be progress in security of the world. Now I saw 
a chart that has shocked me and this chart shows me what the 
Trump's global gag rule is doing.
    Now what we have had other administrations have gag rules 
which is basically prevents, they have prevented U.S. foreign 
aid for family planning to be cut off if even there is a 
mention of abortion or referral to a service that does 
abortion. Now under the Trump version--and that cut off $575 
million in foreign aid which is terrible. I don't think the 
original gag rules are good. I think it is inhumane and I think 
it is stupid, all right.
    But here is Trump's version. It can cut up to $8.8 billion 
in U.S. foreign aid for health programs including family 
planning, HIV, tuberculosis, malaria, maternal and child health 
because it is cutting off funding to these entities even if 
with their own money either perform a legal abortion or they 
refer to a legal abortion or they give all the information that 
is necessary for women to understand what her choices are.
    And I just, it would be absolutely, you would be outraged--
I don't mean you personally, but we would be outraged and we 
are if women were forced to have abortions. That would be wrong 
and inhumane, but to force women to have children against their 
will is also to me inhumane. And now that is not all that is 
going on though. I wish I could say that.
    The Trump administration has also cut off millions and 
millions of dollars in funding to the U.N. Population Fund 
which works in 150 countries to provide critical services 
including maternal care, treatment for survivors of sexual 
violence, and combating harmful practices like child marriage, 
genital mutilation. So, I mean, you can talk all day about 
advances, but if we are holding women back, we are pushing them 
back, there is not going to be advances. So I guess my question 
to you is what is the replacement for all these maternal and 
women's health services that are being cut off?
    Mr. Day. Thank you, Congresswoman. And I certainly agree 
with you that for communities to progress women and children 
must progress as well. That said, the U.S. remains by far the 
largest donor of global health programs in the world and we 
remain committed to supporting the health of women and 
children. And we have programs all around the world. I will 
certainly check on the particular issue----
    Ms. Frankel. Thank you.
    Mr. Day [continuing]. In Mozambique, but ending child 
marriage, ending FGM, gender-based violence, these are all 
issues that USAID continues to have robust programs in support 
of all across the continent of Africa.
    Ms. Frankel. Well, to just finish up here, Mr. Chair. This 
is not a criticism of USAID which does very, very good work. 
But what, from my point of view, the Trump administration has 
been eliminating many, many good partners and what I would ask 
is that you bring back to this committee a full report as to 
who is making up the difference for all these programs that are 
potentially defunded because of the expansion of the global gag 
rule and because of the cutting off of the money to the U.N. 
Population Fund.
    And I thank you again for your service and with that, Mr. 
Royce, I am so sorry for the last time to yield back, but again 
it has been an honor.
    Mr. Royce. Congresswoman Frankel, it has been an honor for 
me to work with you. Thank you very much.
    And I want to thank Ted Yoho here because we have been 
talking about the BUILD Act and as we have heard today that is 
going to double your book of business and all the new 
authorities that you have there. I appreciate his travels to 
Africa, his work also in Asia, but on this BUILD Act as a 
counterweight to Beijing, this is really critical. And I also 
thank him for his work on wildlife trafficking.
    And Congresswoman Frankel, thank you for your work and 
traveling with me on so many occasions. I really appreciate it.
    Congressman Yoho?
    Mr. Yoho. Thank you, Mr. Chairman. And I too want to 
reiterate what everybody says. But I know I am in good hands 
because I have got you looking right over my shoulder up there 
on the wall of the Foreign Affairs past chairmen looking over 
us, so I know we will do well. We will miss you and I thank you 
for your leadership and your mentorship.
    Moving on, it is apparent that the U.S. must be fully 
engaged in Africa as the chairman stated in his opening 
statement, because if we do not, a void is created and grows as 
Africa grows and others will fill that, primarily China, 
Russia, or terrorist organizations. With the right lack of 
governance and all that they can expand, as we have seen. And 
with Boko Haram, there are 2 million displaced because of them 
and so that void has to be filled.
    But how we engage matters and I know you will agree with 
that, we can engage post breakdown of societies or not the 
development of societies or then conflicts are there and it is 
a rougher way to go in there to try to fix something that is 
broken, or we can be proactive and help direct the direction of 
those countries to be able to fulfill the needs of what those 
wants are in that country. And the best way is through smart 
investments and infrastructure leading to economic development 
and to develop those countries it is essential that we move.
    And, Mr. Day, I heard you talking about transitioning from 
the aid and trade, and our mantra has been saying we want to 
transition countries from aid to trade as quick as we can and 
if we look at our top 15 trading partners, of those where 12 of 
them were once recipients of foreign aid. Saying that, my 
questions are recognizing the diversity among African 
countries, what is your assessment on the region's economic 
growth and how do you choose the best country to work with?
    We will start with you Ambassador Nagy.
    Ambassador Nagy. How do we choose the best countries to 
work with. That would come through our engagement with them on 
which countries are really, really ready to move forward and to 
accept the types of business environments which exactly you 
were talking about, low levels of corruption, being really 
interested in their own people bilaterally, but also there is 
another factor because the regions also matter.
    And this time I am really, really encouraged because the 
MCC is able to do regional projects, so that is also very 
important because Africa's natural units are in fact its 
regions because of the old colonial boundaries----
    Mr. Yoho. Right.
    Ambassador Nagy [continuing]. But often regions make a lot 
more sense. So we can really engage to see which of the regions 
are ready, which of the countries are really ready to move 
forward to put into policies and priorities which will benefit 
their own people.
    Mr. Yoho. It perplexes me, because we look over there and 
there are places that don't have water. They don't have 
electricity. This is the 21st century. We know how to do these. 
And what we see prohibiting that are bad government or the 
despots they don't care about the people, they care about their 
personal gain.
    We can't fix every country today, but if we can build on 
the success. And you were talking about the mission in Liberia 
was a success and we know success breeds success. So can we 
build around countries in that same area and that same region 
that say I want what they have and we are willing to come to 
the table and do what we have to, are you finding that, Mr. 
Day? We will ask you.
    Mr. Day. We are, the short answer. And I think also to 
answer your question about how do we choose, how USAID engages 
with our partners on the ground, USAID is transforming the way 
that we do business and that is all part of the journey to 
self-reliance.
    But part of that is we want to be more data-driven in our 
decision making. In fact, we have developed these self-reliant 
road maps that actually can bring together 17 third-party 
objective open source data sources so that we can have a better 
picture as to where these countries are on that path and then 
also helps us guide some of those investments. It is not 
determinative, but it is a conversation starter and a tool that 
we use.
    Mr. Yoho. Okay. We wanted, when we started to draft the 
BUILD Act our goal was to move countries from aid to trade.
    Mr. Day. Yeah.
    Mr. Yoho. We wanted to build on the OPIC model that has 
returned money to the American taxpayers 40 out of 41 years. 
How will the BUILD Act improve U.S. companies' competitiveness 
in Africa and what should their key areas of focus be as they 
look to better support U.S. companies? And I have only got a 
few seconds.
    Ambassador Nagy. With each country that will be different, 
sir, because in some, for example, the tourism sector could 
really, really be exploited to create work. Others it is 
agricultural development and productivity and processing, so it 
depends country to country. But thanks to the BUILD Act it is a 
wide spectrum and again I heard that from the American business 
community and the African leaders themselves.
    Mr. Yoho. Thank you.
    Mr. Chairman, I take this opportunity to yield back to you 
for the last time and it has been an honor.
    Mr. Royce. It has been an honor, Mr. Yoho, to work with 
you.
    Ambassador Ann Wagner.
    Mrs. Wagner. Thank you, Mr. Chairman, for hosting this 
hearing and I will echo my colleagues. I cannot think of a more 
fitting way for you to close out your esteemed time and 
leadership on this committee than to reflect on the immense 
progress we have seen in relations between the United States 
and our African partners and a chart path toward future shared 
growth.
    Ambassador Nagy, I am deeply concerned about China's 
attempts to expand its control over the global cobalt market to 
African producers. It has recently come to my attention that 
China is now seeking to derail a U.S.-Cameroonian memorandum of 
understanding on cobalt production. This strikes me as a 
serious national security risk. Already the U.S. military buys 
most of the cobalt it uses for guided missiles production from 
China, and frankly a partnership on cobalt production with 
Cameroon would greatly benefit both countries.
    How is the State Department working with the Cameroonian 
Government to get the memorandum of understanding back on 
track?
    Ambassador Nagy. Thank you for the question. Unfortunately 
I am not familiar with the issue so I will have to get back to 
you on that.
    Mrs. Wagner. Mr. Day, anything?
    Mr. Day. I will defer to the Assistant Secretary.
    Ambassador Nagy. But I will--can I just add one quick--
during my last visit to West Africa, interestingly, the 
President of Guinea said that they had some potential cobalt 
there and we are following up on that one.
    Mrs. Wagner. We could use the extra partnership. It would 
be helpful to both, and I do not want China once again 
interfering in a very important memorandum of understanding.
    So moving on, my colleagues and I have long sought to 
counter Boko Haram's campaign to use unspeakable violence 
against schoolgirls to gain international notoriety. Last 
February, I was appalled to learn that Boko Haram had abducted 
112 schoolgirls from a town in northeast Nigeria. While most 
were thankfully released a month later, one brave little girl, 
a 15-year-old, Leah Sharibu, remains in captivity because she 
refused to abandon her Christian faith.
    Ambassador Nagy, how is the United States working to secure 
Leah's safe release?
    Ambassador Nagy. Leah Sharibu definitely remains a priority 
for us. Our Ambassador is seized with it as is the rest of the 
mission. We bring her up and as a matter of fact President 
Buhari himself is following up on that on a continuous basis. 
But one of the things that we have avoided is mentioning it too 
much in public because then the value to the terrorists keeps 
going up. But I can assure you that we are working very 
energetically as much as possible to obtain her release.
    Mrs. Wagner. Thank you. Although Rwanda's authoritarian 
government under Paul Kagame recently acquitted opposition 
leader Diane Rwigara of trumped up charges brought against her, 
many worry that the government's intent is to intimidate its 
critics and political enemies.
    Mr. Day, what does Ms. Rwigara's acquittal mean for dissent 
and free speech in Rwanda?
    Mr. Day. USAID has been working in Rwanda for quite some 
time and with a wide variety of different programs. And you 
will have to forgive me, I will have to look into that 
particular issue. Our primary support has been for the Rwandan 
people. We certainly have been concerned with some of the 
closing spaces in Rwanda, but we continue to work with civil 
society and a variety of different groups to support the people 
of Rwanda so that they have a voice into their own future. But 
I will look into that particular issue.
    Mrs. Wagner. Thank you. A few months after Emmerson 
Mnangagwa replaced strong man Robert Mugabe as President of 
Zimbabwe, we have seen disappointingly few improvements. Mr. 
Day, what is the situation on the ground in Zimbabwe and how 
does USAID support the growth of Zimbabwe's civil society?
    Mr. Day. I will defer this to the Secretary on the 
political analysis, but similar to Rwanda we are certainly very 
concerned about the political situation in Zimbabwe in terms of 
an operating space. Our priority of course continues to be the 
support of the Zimbabwean people who have been under tremendous 
distress for a number of decades. And so our programs are 
focused on humanitarian assistance and supporting civil society 
so they again can have a voice in their own.
    Mrs. Wagner. Thank you. Ambassador Nagy?
    Ambassador Nagy. Yes, ma'am. On the ground, the Zimbabwean 
Government is saying some fairly positive things, but we are 
still waiting for some action on the two laws that I mentioned 
previously.
    Mrs. Wagner. Right. All right, well, thank you. I look 
forward to some responses to some of the questions that I had 
and I appreciate your service and your time today.
    Mr. Chairman, I also for the last time yield back. It has 
been an honor and a privilege to work with you here in 
Congress.
    Mr. Royce. Thank you, Ambassador.
    We go to John Curtis of Utah.
    Mr. Curtis. Thank you. Mr. Chairman, I would, like many of 
my colleagues, like to emphasize two themes that we have heard 
throughout these hearings. One is thank you for your service. 
It has been an honor to be the youngest member of your 
committee and to be here.
    The second theme is this influence of China, and I think 
you have adequately answered this over and over in today's 
hearing, so I am not going to really ask you a question other 
than to join my colleagues in expressing concern and 
acknowledging that despite the amazing work that we do, the 
over $8 billion of investment that we make there, that sometime 
China comes in and negates all of that with these tempting 
short-term offers. So just add my voice to the concern and the 
reality of that. Usually around the globe you see as a partner 
in crime Russia in many regions and we haven't really touched 
on that. Could you share with us the influence of Russia on the 
continent and tell us what concerns you have there?
    Ambassador Nagy. Thank you very much, exactly right. 
Russia, while in no way bringing the amount of resources that 
China has, they are trying to be very opportunistic and 
transactional where for a low investment they can maximize 
their influence. I point specifically to the Central African 
Republic where the Russians used an authorization from the U.N. 
Security Council to provide some weapons to the Central African 
Government to bring in several hundred private security people.
    Now the President's security advisor is a Russian. The 
Russians have trained the presidential guard. They are also 
exploiting some mineral resources, so they have inserted 
themselves into the Central African Republic at relatively low 
cost. Those are the types of opportunities that they are 
looking at and they will continue looking at and we have to be 
very vigilant and monitor their activities closely, sir.
    Mr. Curtis. Thank you. Botswana is home to a large 
population or a high percentage of the elephants in the region. 
And we talked and you have referred a little bit to the illegal 
hunting and problems that we have had and we have had almost no 
discussion about potential legal opportunities there, and the 
ban on elephant hunting is viewed in many regions in Botswana 
as harmful. Some of the economic development of the small 
villages is dependent, was dependent on that.
    So while the illegal trafficking is going on, we have kind 
of shut this down, the folks on the ground will tell you they 
don't mind reasonable restrictions based on scientific data, 
but that there has been almost no scientific data put behind 
the ban. What role would be appropriate for the United States 
in determining what is good for legal harvesting of elephants 
in the region?
    Mr. Day. I would be happy to look into the issue and get 
back to you. The only thing I will say is that we have had a 
longstanding and good partnership with the Botswanan Government 
and we have robust wildlife trafficking programs. Our programs 
particularly in Botswana have been focused on HIV and AIDS, but 
I will look into the particular issue of them.
    Mr. Curtis. Thank you. I walked in--I was here for almost 
all 2\1/2\ hours of the hearing but stepped out for a moment 
and when I came back in you were talking about Rwanda. And so I 
don't know if you touched on this while I was gone, but if not 
could you address the problem with the closing of the churches? 
And Rwanda has made so much progress it seems to be a step 
backward. Is that on the radar of the administration and are we 
seeing some improvements there?
    Ambassador Nagy. It is. We have not seen any improvements 
lately, but it is very much on the radar screen of the 
administration because we believe that that particular law was 
very counterproductive. We understand the purpose that they 
were trying to get at, but we felt that the mechanism was 
totally wrong because it was infringing on freedom of religion 
instead of--if there is a problem with certain churches that 
are breaking the law or are not real churches, then you use the 
law to affect them, not with a sledgehammer.
    Mr. Curtis. That is what it felt like.
    My final question is that oftentimes in these voids of 
uncertainty and disruption you will find ISIS and al-Qaeda. We 
haven't talked about that much today. Can you tell us what you 
are seeing in the region with the growth of these terrorist 
organizations and what we need to be looking for?
    Ambassador Nagy. Absolutely. Both of those are very 
opportunistic and different terrorist groups in Africa have 
aligned themselves with one or the other global organizations. 
And sometimes they do that as a mark of trying to be 
recognized, and other times, for example, the new group that 
has crept up in Mozambique are also calling themselves that 
even though there is absolutely no ties to them.
    Mr. Curtis. Right.
    Ambassador Nagy. But as I mentioned before, the terrorist 
threat is growing. It is becoming much more serious. It is 
creeping into places and countries where it has not existed 
before. That is why we have to be very, very active and 
engaging with international partners, with the African 
countries, and all of our friends to confront them wherever 
they exist. Mozambique is a good example because it has just 
started and there is still an opportunity to stop it in its 
infancy. So it is critically important to give it attention 
there, not to let happen what happened with, say, Boko Haram, 
sir.
    Mr. Curtis. Good. Thank you. I am out of time. Mr. 
Chairman, I yield back.
    Mr. Royce. Thank you very much, John. We go now to Mr. Ted 
Poe of Texas.
    Mr. Poe. Thank you, Mr. Chairman. I want to echo my 
colleagues' comments. Thank you for chairing this committee for 
so many years. It has been a wonderful privilege to be here 
with you. We are both leaving Congress. I am back to Texas and 
you are back to the foreign country of California. It has been 
a pleasure working with you and best wishes in the future. I 
think the country is better because of your leadership over the 
last 6 years and even longer than that. You chaired the same 
subcommittee that I am chairing, the Terrorism, 
Nonproliferation, and Trade Subcommittee, so thank you on 
behalf of the people of Texas for your leadership in foreign 
affairs.
    Mr. Royce. Thank you, Judge. I might come see you sometime 
in the winter in Texas.
    Mr. Poe. You are always welcome. You are always welcome, 
sir.
    Gentlemen, thank you for being here. I want to cut right to 
the chase. Wildlife trafficking in Africa is a great concern 
especially as I see things taking place and it is not getting 
better for the animals. You have corruption with governments in 
Africa. You have the slaughter of rhinos for their horns. And 
the horns, I understand, are grounded down into powder and 
shipped illegally to Vietnam.
    You have the elephants and the tusk being sold in China on 
the illegal market, but the bottom line is you got the 
disappearance of wildlife in Africa that may become extinct. My 
12 grandkids, it may be the only time they see rhinos or 
elephants are in Disney movies or Disney cartoons in the 
future. I am not being facetious. So what is the plan to 
improve that situation especially in those two areas, those two 
animals?
    Mr. Day. Thank you, Congressman. As you said this is an 
absolutely critical issue. Biodiversity conservation is 
absolutely critical to the health of African communities. USAID 
has prioritized this issue and will continue to do so. Twenty-
five percent of the agency's biodiversity funding goes directly 
toward wildlife trafficking. We have 65 projects in 25 
countries and so it is something that we work tirelessly at 
protecting.
    Mr. Poe. Excuse me, Mr. Day.
    Mr. Day. Yes.
    Mr. Poe. Are we winning, are we losing?
    Mr. Day. It is a complex issue and it is----
    Mr. Poe. That means we are losing. We are losing. Complex 
means we are losing. I am not faulting you, I am just, I want 
to know because this is a--I guess, really, the question is 
what can we do better to make sure that these animals don't 
become extinct. What can we do, Congress, administration?
    Mr. Day. I think from our perspective if we had more 
greater engagement both at the host country level, the 
international donor community, as well as the private sector, 
as I mentioned earlier in the testimony we can't do this 
without the engagement of the private sector. And that is not 
to say that they are not engaged now, but we do need more 
engagement from the private sector. We believe that that is 
where the vast majority of the force and the power is going to 
come from.
    Mr. Poe. And I agree with you on that too, the private 
sector as well.
    Ambassador, do you want to weigh in on this?
    Ambassador Nagy. The only thing I would add, sir, is that I 
think it is also critically important to engage local 
communities, because if you can persuade them of the value of 
the wildlife for their own livelihood when it is tourism, 
economic development, and factors like that, then that helps us 
win that much easier because the local folks know what is going 
on.
    Mr. Poe. It seems to me I can understand why the bad things 
are happening. You have everybody involved. You have the local 
game wardens, if I can use that phrase, who make almost nothing 
a year, all of a sudden being given a bribe to look the other 
way while terrorists or whoever wants to kill animals on the 
property and it just seems that the international community, 
especially the United States, needs to be directly involved in 
this before it is too late. And then we will wring our hands 
and say, oh, I wish we would have done something different in 
the past.
    I don't know if it is going after the Vietnamese 
Government, going after the Chinese Government, certainly going 
after the terrorists who were involved in doing this and 
getting rid of those do-bads, in my opinion. I would just hope 
that Congress, the administration, the private, and God bless 
those private entities that are trying to do what they can to 
preserve animals.
    Is there any talk about--one last question, Mr. Chairman--
any talk about removing those species from certain areas of 
Africa and relocating them somewhere else?
    Mr. Day. I would have to check on those types of 
discussions. I do know that removal of certain species from 
certain areas is extraordinarily expensive, so I know there are 
resource issues there. But I am happy to look into what the 
current discussions are.
    Mr. Poe. I would appreciate you getting back with me on 
that. We certainly can bring some of them to Texas, it would be 
fine with me. I am just speaking on my behalf.
    Thank you both, gentlemen. Thank you again, Mr. Chairman. 
And that is just the way it is.
    Mr. Royce. Well, thank you. I share the judge's sense of 
urgency on this and I think that is why we need fully funded 
programs. That is why we need full diplomatic engagement and 
also why we need the Departments of State and Defense, both 
working with the game wardens whose lives are on the line there 
in Africa who are trying to stand off these poachers where they 
are outgunned and outnumbered.
    But let me thank Ambassador Nagy and Mr. Day for being here 
to testify before us and I hope the entire administration is 
listening to us today. Clearly there is strong bipartisan 
support for well-resourced, broad engagement in Africa. We have 
got to be present there. We have got to continue our effort 
there to be active in Africa, to build partner capacity, to 
combat terrorism, to foster trade and development.
    As the judge said, to end wildlife trafficking there, to 
strengthen health systems there, and of course to support good 
governance. Too much is at stake, too much for Americans, too 
much is at stake for Africans alike. And with that, this 
hearing is adjourned.
    [Whereupon, at 12:21 p.m., the committee was adjourned.]

 
                            A P P E N D I X

                              ----------
                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
